<html>
<title> - FEDERAL IMPLEMENTATION OF OBAMACARE: CONCERNS OF STATE GOVERNMENTS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
   FEDERAL IMPLEMENTATION OF OBAMACARE: CONCERNS OF STATE GOVERNMENTS

=======================================================================

                             JOINT HEARING

                               before the

                    SUBCOMMITTEE ON ECONOMIC GROWTH,
                  JOB CREATION AND REGULATORY AFFAIRS

                                and the

                     SUBCOMMITTEE ON ENERGY POLICY,
                      HEALTH CARE AND ENTITLEMENTS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 18, 2013

                               __________

                           Serial No. 113-63

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
85-359                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7512051a35160006011d1019055b161a185b">[email&#160;protected]</a>  

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              MARK POCAN, Wisconsin
DOC HASTINGS, Washington             TAMMY DUCKWORTH, Illinois
CYNTHIA M. LUMMIS, Wyoming           ROBIN L. KELLY, Illinois
ROB WOODALL, Georgia                 DANNY K. DAVIS, Illinois
THOMAS MASSIE, Kentucky              PETER WELCH, Vermont
DOUG COLLINS, Georgia                TONY CARDENAS, California
MARK MEADOWS, North Carolina         STEVEN A. HORSFORD, Nevada
KERRY L. BENTIVOLIO, Michigan        MICHELLE LUJAN GRISHAM, New Mexico
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

  Subcommittee on Economic Growth, Job Creation and Regulatory Affairs

                       JIM JORDAN, Ohio, Chairman
JOHN J. DUNCAN Jr., Tennessee        MATTHEW A. CARTWRIGHT, 
PATRICK T. McHENRY, North Carolina       Pennsylvania, Ranking Minority 
PAUL GOSAR, Arizona                      Member
PATRICK MEEHAN, Pennsylvania         TAMMY DUCKWORTH, Illinois
SCOTT DesJARLAIS, Tennessee          GERALD E. CONNOLLY, Virginia
DOC HASTINGS, Washington             MARK POCAN, Wisconsin
CYNTHIA LUMMIS, Wyoming              DANNY K. DAVIS, Illinois
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina
KERRY BENTIVOLIO, Michigan
RON DeSANTIS Florida
      Subcommittee on Energy Policy, Health Care and Entitlements

                   JAMES LANKFORD, Oklahoma, Chairman
PATRICK T. McHENRY, North Carolina   JACKIE SPEIER, California, Ranking 
PAUL GOSAR, Arizona                      Minority Member
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
JASON CHAFFETZ, Utah                     Columbia
TIM WALBERG, Michigan                JIM COOPER, Tennessee
PATRICK MEEHAN, Pennsylvania         MATTHEW CARTWRIGHT, Pennsylvania
SCOTT DesJARLAIS, Tennessee          TAMMY DUCKWORTH, Illinois
BLAKE FARENTHOLD, Texas              DANNY K. DAVIS, Illinois
DOC HASTINGS, Washington             TONY CARDENAS, California
ROB WOODALL, Georgia                 STEVEN A. HORSFORD, Nevada
THOMAS MASSIE, Kentucky              MICHELLE LUJAN GRISHAM, New Mexico


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 18, 2013...............................     1

                               WITNESSES

The Hon. Jeff Colyer, M.D., Lieutenant Governor, State of Kansas
    Oral Statement...............................................    14
    Written Statement............................................    16
The Hon. C. Bradley Hutto, State Senator, State of South Carolina
    Oral Statement...............................................    20
The Hon. Alan Wilson, Attorney General, State of South Carolina
    Oral Statement...............................................    21
    Written Statement............................................    24
The Hon. Katrina R. Jackson, State Representative, State of 
  Louisiana
    Oral Statement...............................................    27
Ms. Kathy Kliebert, Secretary, Department of Health and 
  Hospitals, State of Louisiana
    Oral Statement...............................................    28
    Written Statement............................................    31
The Hon. Eleanor Sobel, State Senator, State of Florida
    Oral Statement...............................................    38
The Hon. Matthew Hudson, State Representative, State of Florida
    Oral Statement...............................................    39
    Written Statement............................................    42

                                APPENDIX

The Hon. James Lankford, a Member of Congress from the State of 
  Oklahoma, Opening Statement....................................    82
The Hon. Jim Jordan, a Member of Congress from the State of Ohio, 
  Opening Statement..............................................    85
Testimony of Stacie Ritter.......................................    88
Testimony of Aqualyn Laury.......................................    90
Process for Training Authentication, Registration, and 
  Certification for In-person Assistance.........................    91
Preliminary Findings of Affordable Care Act Navigators 
  Investigation from Committee on Energy and Commerce Democratic 
  Staff..........................................................    93
A Letter to the Hon. Kathleen Sebelius from the State of West 
  Virginia Office of the Attorney General........................    99
Preliminary Staff Report, Committee on Oversight and Government 
  Reform, ``Risks of Fraud and Misinformation with ObamaCare 
  Outreach Campaign.''...........................................   107
The Hon. Gerald E. Connolly a Member of Congress from the State 
  of Virginia, Opening Statement.................................   137
The Hon. Michelle Lujan Grisham a Member of Congress from the 
  State of New Mexico, Opening Statement.........................   139


   FEDERAL IMPLEMENTATION OF OBAMACARE: CONCERNS OF STATE GOVERNMENTS

                              ----------                              


                     Wednesday, September 18, 2013

                   House of Representatives
   Subcommittee on Economic Growth, Job Creation & 
Regulatory Affairs, joint with the Subcommittee on 
        Energy Policy, Health Care and Entitlements
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittees met, pursuant to call, at 10:07 a.m., in 
Room 2154, Rayburn House Office Building, Hon. James Lankford 
[chairman of the Subcommittee on Energy Policy, Health Care and 
Entitlements] presiding.
    Present from Subcommittee on Economic Growth, Job Creation 
& Regulatory Affairs: Representatives Jordan, Duncan, McHenry, 
Lummis, Bentivolio, Issa, Cartwright, Duckworth, Connolly, 
Pocan, Kelly, Horsford, and Cummings.
    Present from Subcommittee on Energy Policy, Health Care and 
Entitlements: Representatives Lankford, McHenry, Jordan, 
Woodall, Massie, Issa, Speier, Cartwright, Duckworth, Cardenas, 
Horsford, Lujan Grisham, and Cummings.
    Staff Present: Ali Ahmad, Majority Communications Advisor; 
Brian Blase, Majority Senior Professional Staff Member; Molly 
Boyl, Majority Senior Counsel and Parliamentarian; Lawrence J. 
Brady, Majority Staff Director; Daniel Bucheli, Majority 
Assistant Clerk; Caitlin Carroll, Majority Deputy Press 
Secretary; John Cuaderes, Majority Deputy Staff Director; Adam 
P. Fromm, Majority Director of Member Services and Committee 
Operations; Linda Good, Majority Chief Clerk; Meinan Goto, 
Majority Professional Staff Member; Frederick Hill, Majority 
Director of Communications and Senior Policy Advisor; 
Christopher Hixon, Majority Deputy Chief Counsel, Oversight; 
Michael R. Kiko, Majority Staff Assistant; Mark D. Marin, 
Majority Director of Oversight; Laura L. Rush, Majority Deputy 
Chief Clerk; Scott Schmidt, Majority Deputy Director of Digital 
Strategy; Sarah Vance, Majority Assistant Clerk; Rebecca 
Watkins, Majority Deputy Director of Communications; Jaron 
Bourke, Minority Director of Administration; Yvette Cravens, 
Minority Counsel; Jennifer Hoffman, Minority Press 
Communications Director; Adam Koshkin, Minority Research 
Assistant; Elisa LaNier, Minority Director of Operations; Una 
Lee, Minority Counsel; Dave Rapallo, Minority Staff Director; 
and Daniel Roberts, Minority Staff Assistant/Legislative 
Correspondent.
    Mr. Lankford. The committee will come to order.
    I want to begin this hearing by stating the Oversight 
Committee mission statement: We exist to secure two fundamental 
principles: first, Americans have the right to know that the 
money that Washington takes from them is well spent; second, 
Americans deserve an efficient, effective Government that works 
for them. Our duty on the Oversight and Government Reform 
Committee is to protect these rights.
    Our solemn responsibility is to hold Government accountable 
to taxpayers, because taxpayers have the right to know what 
they get from their Government. We will work tirelessly in 
partnership with citizen watchdogs to deliver the facts to the 
American people and bring genuine reform to the Federal 
bureaucracy. This is the mission of the Oversight and 
Government Reform Committee.
    In the past month I have personally spoken with a dad who 
told me that his high graduate son was having difficulty 
finding a job that will hire him for more than 29 hours; spoken 
with a mom that brought me her late 20-something son's 
insurance paperwork which notified him that his health premiums 
will increase from just over $200 a month to just over $800 a 
month starting in January; I talked to a family struggling with 
their family business because they cannot afford the mandates, 
but they also cannot afford to sell the business they worked so 
hard to build. High-risk pools that hit their max in March of 
this year, prevent anyone else from entering high-risk pools.
    No one disputes that there were concerns with the U.S. 
health care system that predate Obamacare. Chief among those 
concerns was the rising cost of health care that was crowding 
out other items in family budgets and contributing to massive 
Federal budget deficits.
    Obamacare was designed to fix three problems: reduce the 
cost of medicine, provide universal coverage for every 
American, and increase the quality of health care in America. 
Americans were told over and over again that if they liked 
their doctor and their insurance, they could keep them. After 
decades of work, union members are furious at the changes of 
health benefits and the traditional 40-hour work week.
    While the law passed by Congress three years ago, 
implementation of the law has been mired in one problem after 
another and, according to a report by the Congressional 
Research Service, the Administration has missed approximately 
half of Obamacare's required deadlines. A recent GAO report on 
State progress with exchanges found that compressed time frames 
and a lack of clear Federal requirements related to the Federal 
data service's hub has a major IT challenge to opening the 
exchanges for enrollment October the 1st of this year.
    Two months ago the Administration delayed Obamacare's 
employer mandate and several reporting requirements. Although I 
believe the employer mandate is bad policy, the effect of this 
unilateral delay by the Administration will be that the 
exchanges will have more difficulties verifying whether 
individuals have an offer of coverage at work, thus exposing 
taxpayers to the risk of significant spending on subsidies for 
those not qualified to receive them and, for those individuals 
that have received them, a tax burden at the end of the year 
that will be quite a surprise to them.
    Moreover, the Administration only delayed the employer 
mandate. Individual citizens are still liable for the 
penalties; just businesses are no longer liable.
    State leaders from across the Country have complained that 
the Administration has not adequately responded to their 
questions and concerns. Since many States have part-time 
legislatures that are only in session during the spring, HHS's 
failure to issue timely guidance harms States' abilities to 
implement the law and better protect its citizens from its 
harmful aspects.
    Today we are pleased to hear the testimony from multiple 
State officials involved in much of the day-to-day work in 
preparing their respective States for the start of Obamacare. 
We have with us today multiple different witnesses. I will 
allow Ms. Speier to introduce some of those, but the Lieutenant 
Governor of Kansas, Jeff Colyer, who is also a physician; 
Florida State Representative Matthew Hudson; Secretary of the 
Department of Health and Hospitals from the State of Louisiana, 
Kathy Kliebert; and Attorney General for the State of South 
Carolina, Alan Wilson.
    Yesterday the Democrats on this committee threatened not to 
participate in the hearing unless we invited eight Democrat-
selected witnesses. Since normally the minority party only 
selects one witness, and even the majority party only had four 
witnesses for this hearing, it seemed like a fairly audacious 
request. But we didn't want members of this committee, that is 
formed to do oversight work, to walk out and fail to hear the 
serious struggles that States are experiencing as a result of 
Obamacare and the Administration's implementation of Obamacare, 
so we made the unprecedented accommodation to let them invite 
the same number of witnesses as the Majority. Members shouldn't 
walk away from States struggling to implement Obamacare. We 
should listen to their concerns and we should find solutions.
    One area that will be explored today is the 
Administration's Navigator and Assistor Programs. One of the 
witnesses here today, Attorney General Wilson, from South 
Carolina, along with 12 other attorneys general, sent a letter 
to Secretary Sebelius on August the 14th asking questions about 
the Navigator Outreach Program. As is the pattern of late, the 
Administration has not yet responded. In fact, I spoke 
yesterday with health care leaders in my own State, and they 
informed me that they cannot get answers from HHS. The 
navigators they speak to my in State still have no idea what is 
happening, and we are only days away from October the 1st, that 
launch date.
    Fortunately, the committee has conducted oversight of the 
Navigator and Assistor Program. I would like to introduce into 
the record a preliminary staff report on our findings relating 
to the Navigator and Assistor Programs. These findings were 
largely based on transcribed interviews with top HHS officials 
and internal HHS documents produced to the committee. The 
report shows that the Navigator and Assistor Programs are rife 
with mismanagement and they are still struggling to be able to 
put things together even at this point, and it has the real 
possibility that a large number of Americans will fall victim 
to fraud and identity theft.
    Top HHS officials admitted that the Administration failed 
to conduct any analysis about whether or not it should require 
all individuals hired by Navigator and Assistor organizations 
to pass a background check or be fingerprinted, or have the 
same basic requirements that census workers have.
    The Administration decided to leave the responsibility for 
authenticating navigators and assistors to the organizations 
receiving the grants to implement the programs. As a result, 
the Federal Government will not be able to provide consumers 
with a list of individuals officially certified as navigators 
and assistors. HHS officials deemed several marketing 
activities inappropriate, such as door-to-door solicitation and 
direct phone calls, but have not taken steps to ban them. HHS 
allows Navigator and Assistor organizations to pay their 
employees based on the number of individuals they enroll, which 
creates an incentive for those employees to provide biased or 
incomplete information about Obamacare to maximize employment.
    We have multiple issues here. Every program in the Federal 
Government needs oversight. That should also apply to the 
newest programs in Government, like Obamacare. While billions 
are spent, it is reasonable to ask if it is going well and 
accomplishing what it was designed to do.
    I now recognize the distinguished ranking member, the 
gentlelady from California, Ms. Speier, for her opening 
statement.
    Ms. Speier. Mr. Chairman, thank you for the opportunity to 
comment on this hearing. Let me be frank. This is not a 
hearing; this is theater. I wish it was just a little bit more 
entertaining.
    This is a bad script with a bad ending because some of my 
colleagues on the other side didn't like the way the 
presidential election turned out, didn't like the Supreme 
Court, including Chief Justice Roberts, finding law to be 
constitutional, and are simply desperate to rewrite the play.
    It is time to take the makeup and the costumes off and get 
real. The Affordable Care Act is the law of the land, and there 
will be no rewrites, no matter how much you would like to 
rewrite the ending.
    I am sickened by the efforts of some to sabotage this law 
at every turn. In some States the elected officials aren't even 
subtle about it. They don't even try to mask their blatantly 
political shenanigans under the guise of public interest.
    Take the duly elected insurance commissioner of Georgia, 
who was caught on tape bragging to an audience of Republican 
campaign contributors and activists. Let's play the video.
    [Video played.]
    Ms. Speier. He said he was doing everything in his power to 
be an obstructionist. He pointed to the example of the Georgia 
Republican Legislature, which invented a new requirement that 
Obamacare navigators be licensed. His insurance department 
would just make up a test requiring navigators to pass the 
insurance agent's test just to obstruct them from conducting 
outreach to uninsured people.
    The only justification for this new requirement is that it 
helps obstruct implementation of Obamacare.
    Unfortunately, he is not alone. The only witnesses the 
Majority chose to invite are, like the Georgia commissioner, 
doing everything in their power to be obstructionist.
    Florida State Representative Matt Hudson, we thank you for 
being here, is no particular expert on State concerns about the 
ACA implementation. Mr. Hudson is himself busy creating 
concerns and barriers to implementation. Recently he introduced 
a bill suggested in the State legislator's guide to repealing 
Obamacare. The poster is behind me, which was published by the 
American Legislative Exchange Council, ALEC, a Koch brothers-
funded entity.
    Not every Republican tolerates the obstructionist tactics. 
In Kansas, the elected insurance commissioner, Sandy Praeger, 
has struggled to implement the Affordable Care Act, even as 
Governor Brownback sued to challenge the constitutionality of 
the Affordable Care Act, returned a $32 million federal grant 
to help the State set up health insurance exchanges, and has 
called the Affordable Care Act an abomination.
    Senators McCain and Coburn have both criticized their 
Republican colleagues for working to bring on a Federal 
Government shutdown just to stop the funding for ACA 
implementation. Senator Coburn called it ``dishonest.''
    Sadly, this is a concerted campaign to deny people 
affordable health care being conducted by certain Republican 
elected officials, but it is being orchestrated by entities 
like ALEC and financed by billionaires like the Koch brothers.
    I strongly believe in the importance of congressional 
oversight; it is our job to make sure that the laws of this 
land, laws passed by Congress, are carried out effectively and 
efficiently. But this committee is not engaging in oversight; 
it is not interested in getting to the facts and seeing the law 
properly implemented; or in identifying improvements or 
technical fixes. This committee has, instead, chosen to 
undermine the law and encourage the vowed obstructionists who 
are throwing hurdles in its way at every step of the process.
    Mr. Chairman, this effort has become a theater of the 
absurd. While I appreciate that you have now accepted some of 
our witnesses to try and convince the audience that there is 
some semblance of balance to your script, your play will not 
make it to opening night and will be relegated to the dustbin 
of theatrical failures once the real show begins to run. I 
sincerely hope that this is the beginning of the end of the 
charade to undermine a law that has been found to be 
constitutional. And I would like to remind my colleagues that 
we are sworn to uphold the law and the Constitution, and that 
is a duty I take seriously. It is time we actually do our jobs.
    I want to welcome Louisiana State Representative Katrina 
Jackson, Senator Brad Hutto of South Carolina, and Senator 
Eleanor Sobel of Florida. Thank you for joining us today and 
coming here on your own dime.
    Mr. Lankford. With that, I would like to recognize the 
chairman on the Subcommittee on Economic Growth, Mr. Jordan, 
for his opening statement.
    Mr. Jordan. Thank you, Mr. Chairman. Thank you for putting 
this important hearing together where we can hear from folks on 
the front line.
    Let me just say, in response to the last statement, 
everyone in the Country knows this law is not ready. Yesterday, 
Warren Buffett said scrap the bill. Last week the AFL-CIO voted 
and said fix it or repeal it. Max Baucus, not Republican James 
Lankford, not Republican Jim Jordan, Max Baucus said it is a 
train wreck. Howard Dean said it is going to lead to rationing 
of care. Not exactly Republicans there.
    James Hoffa said it is going to hurt working Americans, 
going to fundamentally change the 40-hour work week, which it 
will, and it is already doing that.
    Even the President knows this bill needs delayed. That is 
why he delayed it for big business. We just want to say delay 
it for the rest of America.
    I mean, it is unbelievable. It was unpopular when not one 
single Republican voted for it and Democrats passed the bill; 
it was unpopular then. It is even more unpopular now. This 
argument is unbelievable.
    I don't know that the Democrats have introduced a bill to 
fund the Government. There have been bills introduced by 
Republicans to fund the Government and delay Obamacare, which 
is exactly what the American people want. And we are going to 
hear from people on the front line today who know how hard it 
is to try to implement this legislation.
    In Ohio, think about this. Last week, headline in an Ohio 
paper, in Ohio, seventh largest State, 11 million people. Not 
one single navigator, not one, has been trained and licensed as 
our law requires by the Ohio Department of Insurance. Not one. 
And we are 13 days away from the exchange starting. Not one. 
Seventh largest State; 11 million people. You think this thing 
is going to work well? You don't think this thing needs 
delayed? This is unbelievable. Of course it needs delayed, and 
the American people understand that, and they are just asking 
their representatives, Republican and Democrats, to recognize 
that fundamental fact. And this hearing is about highlighting 
that fundamental fact.
    I didn't read my statement; I just reacted to what we heard 
before. But this is as clear as it gets. In my time in public 
life, I have never seen something this obvious, make this much 
common sense, and have that much opposition to doing it. 
Unbelievable.
    Mr. Chairman, I yield back.
    Mr. Lankford. Recognize the ranking member of the 
Subcommittee on Economic Growth, Mr. Cartwright, for his 
opening statement.
    Mr. Cartwright. Thank you, Chairman Jordan and Lankford for 
calling this hearing.
    All across this Country some State legislators and other 
elected officials are obstructing the Affordable Care Act law, 
the law of the land, and undermining enrollment in health 
exchanges. Just this week Florida Governor Rick Scott issued a 
directive banning Navigator grantees from operating on the 
grounds of county health departments. This is particularly 
obstructive because county health departments are precisely 
where Floridians with questions about the health care exchanges 
might turn.
    Florida Governor Scott also stripped Florida's insurance 
commissioner of its ability to review insurance rates and 
protect consumers from unfair or excessive premium hikes. The 
``rate review'' provisions of the Affordable Care Act require 
insurance companies to justify any proposed health insurance 
premium increase of 10 percent or more. Last year, this 
provision alone saved 6.8 million consumers an estimated $1.2 
billion in health insurance premiums. This is working.
    In fact, every witness invited by the Majority here today 
represents a State government that is openly obstructing 
implementation of our Affordable Care Act. These witnesses do 
not have concerns about implementation, they are creating 
concerns and barriers to implementation, and they are proud of 
it. One witness, State Attorney General Alan Wilson, works 
under South Carolina Governor Nikki Haley, who said, ``When it 
came to Obamacare, we didn't just say no, we said never. We are 
not expanding Medicaid just because President Obama thinks we 
should, and we are going to keep on fighting until we get 
people like Senator Tim Scott and everybody else in Congress to 
de-fund Obamacare.''
    Another witness, Secretary of the Department of Health and 
Hospitals, Kathy Kliebert, works under Louisiana Governor Bobby 
Jindal, who said, ``We don't think it makes any sense to 
implement Obamacare in Louisiana. We are going to do what we 
can to fight.''
    Our constituents deserve better than this. One such 
constituent is right here with us today, Stacy Ritter, a 
resident of Pennsylvania, my home State. Stacy, if you are 
here, would you stand up? There she is. Welcome, Stacy. She 
came here on her own dime, she is here on her own expense, and 
she is here to tell you, either on or off the record, her 
compelling story, but I will tell you what it is right here. It 
is in her written statement. Unfortunately, the Majority has 
not allowed Stacy Ritter here to present her statement, but I 
am going to read an excerpt.
    Mr. Issa. Would the gentleman yield? I suspect I am the 
Majority. We have an unprecedented number of witnesses here 
from the Minority; three, when the tradition is one, and they 
were selected by the Minority, not by the Majority. So there 
are four witnesses that we selected. The ranking member sent me 
a letter yesterday asking for an additional eight, but in order 
to get them all on one panel, we have the largest panel we ever 
have, and all three of these witnesses were selected by the 
Minority. So I hope the gentleman was mistaken in that portion 
of the statement.
    Mr. Cartwright. Reclaiming my time.
    Here is what Stacy had to say: ``Thanks to the ACA, the 
girls''--she is talking about her two daughters. She has two 
daughters with a rare blood disorder known as myelodysplastic 
syndrome. What she said was, ``Thanks to the ACA, the girls can 
no longer be discriminated against if I were to lose or change 
jobs. Thanks to the ACA, we no longer worry about reaching 
lifetime caps on coverage. Thanks to the ACA, my girls can 
remain on my insurance until they are 26 years old, giving them 
time to finish college and find a job.
    There are millions of Americans like Stacy Ritter who have 
needed the Affordable Care Act for a very long time.
    Mr. Chairman, I am going to ask permission to insert Stacy 
Ritter's entire statement into the record.
    Mr. Lankford. Without objection.
    Mr. Cartwright. Now, in fact, in 2007, nearly 10 percent of 
Pennsylvanians reported they were unable to see a doctor when 
necessary due to the cost. Between 2003 and 2009, families in 
Pennsylvania saw their health insurance premiums increase by 45 
percent, to an average annual cost of $13,229. Single 
policyholders experienced a 38 percent increase over the same 
period. Of those who do have health insurance, 53 percent are 
covered through their employment. Public programs such as 
Medicaid and Medicare insure 31 percent of Pennsylvania's 
population, and 5 percent of residents purchase individual 
private policies. This leaves nearly 1.4 million, 11 percent of 
the State's population uninsured for health care.
    Pennsylvania's children are uninsured at a rate of 8 
percent. This is a figure that doubles to 16 percent for 
children living in households with incomes less than 139 
percent of the Federal poverty level. Non-elderly adults, those 
younger than 65, that live in these lower income homes, are 
uninsured at a rate of 32 percent. A quarter of Pennsylvania's 
non-elderly Hispanic population lacks health insurance, non-
elderly Blacks are uninsured at a rate of 17 percent and 11 
percent of the non-elderly white population is uninsured.
    Over the next six months, as the health exchanges stand up, 
Pennsylvanians like Stacy Ritter will finally be able to get 
the help they need for themselves and their families.
    Our job is to conduct oversight, and not cheer while State 
officials impede the implementation of enacted Federal law.
    I yield back.
    Mr. Lankford. I recognize the chairman of the full 
Committee, Chairman Issa, for his statement.
    Mr. Issa. Thank you, Mr. Chairman. I want to thank both our 
chairman and ranking members for holding this important 
hearing.
    As I said earlier, we have a very large panel and I look 
forward to getting to that panel.
    There is an old expression here in Washington: When asked 
about a tough situation, people will often say, well, some of 
my friends are for it and some of my friends are against it, 
and I want to be with my friends.
    Now, I have never said let's de-fund and eliminate all of 
Obamacare without viable replacements for many of the things 
that the Affordable Health Care Act chose to do. Along with 
every Republican in Congress at the time, I voted against the 
Affordable Care Act because I felt there were many things in 
there that were overreaching and that were very lopsided. But 
let's understand that I think every member on the dais and 
every member testifying today would say there were problems in 
health care before President Obama came into office.
    The Affordable Care Act attempted to say it was going to 
tackle many of those problems, and some of them we agree on: 
people with preexisting conditions finding themselves unable to 
leave a job; the unemployed college graduate or, for that 
matter, the returning veteran not eligible for retirement, but 
finding himself unemployed and out of the military, trying to 
figure out where he or she is going to go to get health care.
    There are many, many groups that were falling through the 
safety net of predictable access to health care. We need to 
deal with that. Very clearly, America's problem is not that we 
don't have some of the best health care, it is that we have the 
most expensive health care. One of my concerns is that the 
Affordable Care Act does little to make it affordable except 
through subsidy. Attacking the real causes of our health care 
costing more than any other first world nation is something 
that we must work on.
    Ms. Speier, who was very new when the Affordable Care Act 
was passed, said something today that I am taking some 
exception to, not on a personal basis, because I don't think 
she meant it, but she said that this law is the way it is and 
nothing is going to be changed. Well, bad law happens. The 
Affordable Care Act, for example, mandates that every member of 
Ms. Speier's staff and every staff member of everyone on this 
dais is to be thrown off of the Federal workforce's health care 
system, put into an exchange, and not reimbursed. In other 
words, the Affordable Health Care Act cut by $5,000 to $10,000 
the benefit for people making as little as $25,000 or $30,000 a 
year, as staffers here on the Hill.
    Now, I am sure Ms. Speier, if asked, would have said, well, 
I am not voting for that. But she did vote for it. It needs to 
be fixed. We cannot have the men and women who would like to 
serve members of Congress find themselves working for a 
deadbeat employer. That is real; it is in the Act. It was in 
the Act from the Senate, so maybe we in the House can say we 
have to fix it. But it is there.
    Now, in the Act is an implementation that has a lot of 
bureaucracy, including State exchanges. The anticipation was 
that all States would quickly come together and want to have 
State exchanges and want to have the subsidies that came with 
it. What I believe we have seen is a legitimate disagreement 
between States who do not want to have a limited subsidy that 
would probably be phased down or out and leave them holding the 
bag with all the regulations that come with a Federal program.
    More importantly, this committee has held a series of 
hearings, and I thank both chairmen, on the implementation 
problems, databases, privacy and so on. These are not intended 
to kill an existing law; they are intended to make it clear 
that if it is to go into effect, it should go into effect at a 
time that it can be effective. Nothing will kill Obamacare 
faster than in fact a series of horrific mistakes, losses of 
private or sensitive information or denial of care, or, in 
fact, huge cost overruns.
    So I, for one, am not one of those people who said I am 
going to kill Obamacare; I am going to, in a Machiavellian way, 
attempt to delay or deny. But as chairman of this committee, 
with my subcommittee chairmen, we have seen serious problems 
our witnesses will talk about. Hopefully, by putting all seven 
on this panel, we give an opportunity for people who have 
concerns about the implementation of the Affordable Care Act 
and those who believe that we are ready to go live in a matter 
of days to have an appropriate debate.
    I am pleased and I thank the ranking member, when he made 
his selection, to choose people from responsible positions 
where they are looking at the Act, and not the benefits of the 
Act, but the actual Act, and whether implementation will be 
done properly and on time.
    I share with the chairman's opening statement that, in 
fact, if the President wants to delay one part of a mandate, 
Congress has to ask are we ready to go live.
    Lastly, I think for all of us on the dais, we understand 
that some parts of the Affordable Care Act are already law, 
they are already implemented. It is a question of implementing 
these large, expensive programs with, for example, a database 
that has today not been tested, but in a matter of days is 
supposed to go live with all of your personal information 
transferred from the IRS and your health care information added 
to it on a daily basis. That is something we should be 
concerned with.
    So I join with the ranking member in welcoming this large 
panel of distinguished individuals who do not agree on 
everything, but hopefully they will be my friends and agree 
that we have to get it right. And if that means, Ms. Speier, 
changing some parts of the law, so be it. Let's work together 
on making this an Affordable Care Act in every way we can while 
we debate whether or not we can afford some aspects of it.
    Chairman, thank you for the indulgence. I yield back.
    Mr. Lankford. Recognize the ranking member from the full 
Committee, Mr. Cummings, for his opening statement.
    Mr. Cummings. Thank you very much, Mr. Chairman. I was very 
heartened by the words of the chairman of the committee and I 
want to thank all of you for bringing us together today.
    I want to remind all of us of something that we may have 
forgotten. This is the law. Hello, this is the law. It has been 
passed. Chief Judge Roberts of the Supreme Court said it was 
constitutional. It is the law. And every two years every member 
of this committee, we put our hands up and we say that we are 
going to uphold the law. That is where we start.
    So I am so appreciative of what the chairman just said, but 
the 41 times that we have voted on this, it was not to replace 
it. No. It was to kill it. Period. To kill it. Forty-one times.
    So I want to thank you, Mr. Chairman, for accepting the 
witnesses we requested. I want to thank the chairman of the 
committee. I thank you. They are elected officials from South 
Carolina, Florida, and Louisiana. After serving as speaker pro 
tem of the Maryland House, I want to thank all of you, and I 
appreciate your service.
    Unlike the witnesses invited by the Majority, these 
officials have tried to implement the Affordable Care Act even 
in the face of obstruction coming directly from their own 
governors. Trying to implement the law. Unfortunately, there is 
a systematic effort by some Republican officials to obstruct 
implementation of the Affordable Care Act. These officials have 
openly, it is not a secret, come on now, pledged to fight 
implementation, harass entities attempting to conduct public 
education and outreach, and adopted legislative and regulatory 
maneuvers to sabotage the Affordable Care Act. That is a fact.
    Last week, Chairman Upton sent letters to 51 State 
Navigator organizations demanding that these community 
organizations turn over huge amounts of documentation to the 
Committee on Energy and Commerce. As Norm Ornstein said, ``This 
is intimidation and another effort to sabotage.'' Not replacing 
anything. Not improving anything. Trying to kill it.
    Some Republican State officials have taken a page from the 
same playbook. West Virginia's Attorney General Pat Morrisey 
recently sent letters to Navigator grantees in his State 
demanding answers to dozens of questions. One recipient, West 
Virginia Parent Training and Information, subsequently returned 
$365,000 in grant money that it had applied for and won. Other 
States are acting the same way.
    The problem is that there are tens of millions of people 
who desperately need the Affordable Care Act to succeed, 
including in these very States. And as our witnesses testify, I 
want you to tell us what happens to them. What happens to the 
people in your States who are sick and cannot get care? And 
they need members of Congress to do our job and help it succeed 
through responsible oversight.
    If I may, I would like to introduce Ms. Aqualine Laury. Ms. 
Laury, would you stand up? A resident of Virginia and the 
victim of a stroke she suffered in college, as well as a series 
of other serious health problems, Ms. Laury is here today on 
her own dime. Like millions of other Americans, she cares what 
insurance companies call a preexisting condition. And when the 
chairman talked about the good parts of law, one of the things 
that we have to keep in mind is that you have to have the whole 
law to make it work.
    Mr. Jordan. Would the gentleman yield?
    Mr. Cummings. No, I want to finish my statement. I want to 
talk about this lady who traveled here, who has been ill. Ms. 
Laury traveled here today to present her story to Congress.
    This is her story: ``In 2005, I decided to leave my job and 
a large employer to pursue my dream of owning my own business. 
However, later that year I needed emergency gallbladder surgery 
and suffered complications. At that point, my insurer rescinded 
my coverage and left me with $50,000 in medical bills during my 
first year in business. If the Affordable Care Act had been in 
place then, it would have been against the law for my insurer 
to drop me from coverage. I am looking forward to opening the 
health insurance marketplace in Virginia this October and the 
availability of the new health insurance premium tax credit 
that could potentially make my health insurance even more 
affordable. I am also very appreciative that I no longer have 
to worry ever again about being denied coverage due to my 
preexisting conditions, being charged exorbitant premiums that 
I can't afford, or having my coverage dropped if I need another 
hospital visit.''
    Ms. Laury, I want to thank you for coming. By telling us 
the story of your life, it is personal business, you speak for 
millions of Americans, millions.
    And I ask that Ms. Laury's complete statement be entered in 
the record, Mr. Chairman.
    Mr. Lankford. Without objection.
    Mr. Cummings. Thank you.
    Mr. Cummings. As I conclude, the truth is that nobody 
really believes today's hearing was intended to help make the 
Affordable Care Act work better.
    Now, I must say that I believe the chairman meant what he 
said. But not everybody is where the chairman is. That is why 
we have had 41 votes to kill it. Republicans have taken more 
than 40 votes on the House floor to appeal Obamacare and 
replace it with absolutely nothing.
    Everyone knows what this hearing is really about: trying to 
end Obamacare. This week House Republicans are threatening to 
shut down, shut down the entire Government unless the 
Affordable Act is completely de-funded. Republicans want to 
eliminate health coverage for tens of millions of Americans, 
return the keys to the insurance companies, and go back to the 
days of discrimination against people like Ms. Laury with 
preexisting conditions.
    Ladies and gentlemen, I have said it before and I will say 
it again, we can do better. And the chairman is right, there 
are things that we can do to improve this. And this may be 
hard, but this is America. We do hard things all the time. We 
can do this because people's lives are dependent upon it.
    With that, I yield back.
    Mr. Jordan. Mr. Chairman?
    Mr. Lankford. Yes, sir.
    Mr. Jordan. Mr. Chairman, I just point out the gentleman 
talked about the law, implementing the whole law. Was the 
President upholding and implementing the whole law when he gave 
a delay to big business? Great speech. Give it to the President 
of the United States. He is the one who said big business gets 
a delay, but the rest of America doesn't.
    Mr. Cummings. Come on, now.
    Mr. Jordan. Well, that is the truth.
    Mr. Cummings. Mr. Chairman?
    Mr. Lankford. Yes, sir.
    Mr. Cummings. He knows what the President was trying to do, 
was to try to----
    Mr. Jordan. The gentleman----
    Mr. Cummings. Are you going to let me answer the question?
    Mr. Jordan. You got seven minutes. I just took----
    Mr. Cummings. Why did you ask me a question?
    Mr. Lankford. It is all right. Go ahead and answer the 
question, sir.
    Mr. Cummings. Yes. Again, this is hard and business said 
that they could not get certain things accomplished. The 
President gave them that leeway. A lot of the problem that we 
have in the law is because of things that happened when we were 
trying to pass it and trying to compromise here, compromise 
there. But, again, the chairman of the committee is right. You 
are right. There are things that could be better. But that does 
not mean we scrap it and throw it out, because people will die. 
They will literally die, and you know it.
    Mr. Jordan. The gentleman was making the fundamental point. 
He specifically said, and we can read it back, he specifically 
said the whole law. And I just want to know if it is the whole 
law, it should be the whole law, and we shouldn't give some 
special dispensation to big business, which the President did 
without even have Congress vote on it.
    Mr. Issa. Mr. Chairman?
    Mr. Lankford. Sir.
    Mr. Issa. I take no special privilege, but as a member of 
the committee I know that we have witnesses who can deal with 
some of the challenges that everyone is concerned about, the 
individual mandate, the corporate mandate, the timeliness of it 
and so on. So I hope we can get to it.
    I join with the ranking member in one sense: this is an 
important hearing. We will disagree on the purpose of it, 
perhaps, but I think that as we hear from our witnesses, both 
sets of witnesses, I think the witnesses will speak for the 
real intent of the hearing, and I look forward to getting to it 
and then a lively debate afterwards.
    Mr. Lankford. We will have plenty of opportunity for that 
in the conversation as we try to determine how is the 
implementation going and what are the real effects on the 
ground.
    With that, members will have seven days to submit opening 
statements for the record.
    We will now recognize our first and only panel today.
    The Honorable Jeff Colyer is the Lieutenant Governor of 
Kansas and also a physician.
    Ms. Speier. Mr. Chairman, I have an inquiry.
    Mr. Lankford. You have an inquiry?
    Ms. Speier. Mr. Chairman, we normally swear in all of the 
witnesses. Are we not going to do that today?
    Mr. Lankford. We are. We going to introduce all of them and 
then swear in.
    Ms. Speier. Thank you.
    Mr. Lankford. We can't have a good hearing without a good 
swearing in the middle of it as well.
    [Laughter.]
    Mr. Lankford. The Honorable Brad Hutto is a State senator 
from the State of South Carolina. The Honorable Alan Wilson is 
the Attorney General for the State of South Carolina. The 
Honorable Katrina Jackson is a State Representative for the 
State of Louisiana; Kathy Kliebert is the Secretary of the 
Department of Health and Hospitals for the State of Louisiana; 
the Honorable Eleanor Sobel is the State Senator for the State 
of Florida; and the Honorable Matthew Hudson is a State 
Representative for the State of Florida.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify, and by Ms. Speier's demand as well. Just 
kidding. But we do ask you to rise, raise your right hand.
    Do you solemnly swear or affirm the testimony you are about 
to give will be the truth, the whole truth, and nothing but the 
truth, so help you, God?
    [Witnesses respond in the affirmative.]
    Mr. Lankford. You may be seated.
    Let the record reflect all the witnesses have answered in 
the affirmative. Thank you for that.
    In order to allow time for discussion, and we will have 
some good discussion with this, please limit your testimony to 
five minutes. You have a clock that is right in front of you 
that will start as soon as you begin. Please note, as well, we 
need you to be able to push your button to make your microphone 
live. When that is lit up and it says talk, you are live on 
your microphone, and we will need you to get as close as we can 
to make sure that we can hear every syllable that you say from 
there.
    With that, I would like to recognize our first person, 
Lieutenant Governor. Be honored to be able to receive your 
testimony.

                       WITNESS STATEMENTS

          STATEMENT OF THE HONORABLE JEFF COLYER, M.D.

    Dr. Colyer. Thank you, Mr. Chairman and ranking members. My 
name is Jeff Colyer. I am honored to be the lieutenant governor 
of Kansas. I am also a practicing physician who, every day, 
this past week, for example, has operated on people without 
insurance, and we take care of them every day. So this is 
something that is very personal to me.
    Like most States, Kansas is facing problems with the 
Affordable Care Act. It is a drag on Kansas businesses. A July 
2013 Gallup poll suggested that small business owners revealed 
that 41 percent of business owners said that they were going to 
hold off on plans to hire new employees because of the 
Affordable Care Act. And in Kansas that trend is no different. 
Wherever I go, the biggest concern I hear is the uncertainty 
about what the ACA is going to do to small businesses.
    In a new development, since my testimony was written last 
week, it affects businesses such as mine. I am a sole 
practitioner. Just yesterday we had to sign a contract for 
$3400 to rewrite all of our compliance manuals to fit in with 
the ACA. All it does is continues the same HIPAA requirements 
that we had before, but we just have to have a new form of 
documentation of that. It is something that doesn't change what 
we do, but it certainly costs us from new equipment, new jobs, 
and from taking care of our patients. So I think you are going 
to see this everywhere in a lot of different places.
    Another Kansan, named Mike Bergmeier, of Shield 
Agricultural Equipment in Hutchison, Kansas, said that he can't 
grow his company beyond the 44, 45 full-time employees because 
he needs to avoid the mandates that require companies with more 
than 50 employees to meet the ACA's requirements. Mr. 
Bergmeier's situation is not unique.
    The Affordable Care Act is a drag on the economy like ice 
is on the wing of an airplane, preventing it from taking off. 
This is damaging to everyone, especially the middle class.
    Now, there is some other issues on operability. One place 
is where the States and Federal Government interact to 
determine eligibility for Medicaid and for the individuals on 
the exchange. Our State is significantly advanced in doing that 
and we have a very good, very strong working relationship with 
CMS, and a very positive one. Now, as recently as September 6th 
I said in my testimony, but we have now heard on September 
13th, there are a number of additional technical updates that 
keep disrupting the time completion for this. In fact, it 
appears that there is going to be an additional update coming 
up even before the October 1st deadline. So that is going to 
make it very difficult for every State to do that. We are doing 
our best that there is.
    But then there is also this contradiction that is set up in 
determining eligibility. For Medicaid, Kansas and every other 
State they have to look at a person's real income and, if they 
don't verify that, we would lose Federal funding for our 
Medicaid program. It is very hard for the taxpayers to have 
confidence in a system where, on the exchanges, we have an 
honor system in the first year to verify income. So it is 
really a strong dichotomy that I think undermines a lot of 
confidence in the system.
    Another issue that we have is dealing with the education 
and outreach by the Federal Government. Just recently is when 
the Navigator programs received their contracts. As yet, they 
are supposed to be set up in order to know how the system runs, 
and we just learned who are those navigators going to be just a 
few weeks ago, and yet the system is still not able to go live 
today so that they can even practice and be fully formed in 
that. Kansas has not passed a number of laws about the skill 
sets of the navigators or anything partly because we didn't 
have all of the regulations that had come down.
    There is also an issue of rates. It is going to be very 
expensive for us. One of the things that is there is in the 
State of Kansas, our exchange is only going to have two 
insurers on the entire exchange. Two insurers. That is not more 
competition, that is less competition. In fact, in Kansas you 
have more choices in Medicaid than you do in the Federal 
exchange in the State of Kansas. So we have looked at a number 
of the price issues and things like that, and it is going to be 
a challenge for people.
    Finally, as a physician, I see this every day. I visit with 
my colleagues; we work together. We serve the uninsured. We 
have done that before. I have been doing it for 20 years; we 
will continue to do it in the future. This is not going to 
solve those issues. This is not going to make health care more 
affordable. In fact, it sets up new bureaucracies like the 
$3400 that I have to spend just now. It doesn't make health 
care necessarily better.
    We can do a much better, and it is best left to the States. 
Thank you.
    [Prepared statement of Dr. Colyer follows:]

    [GRAPHIC] [TIFF OMITTED] T5359.001
    
    [GRAPHIC] [TIFF OMITTED] T5359.002
    
    [GRAPHIC] [TIFF OMITTED] T5359.003
    
    [GRAPHIC] [TIFF OMITTED] T5359.004
    
    Mr. Lankford. Senator Hutto.

          STATEMENT OF THE HONORABLE C. BRADLEY HUTTO

    Mr. Hutto. Thank you, Mr. Chairman. I thank the 
distinguished members for allowing me the opportunity to 
address the issue of the Affordable Care Act and how it will 
affect my rural South Carolina district.
    The Affordable Care Act would allow 350,000 to 400,000 
South Carolinians to obtain health coverage. With Medicaid 
expansion, an additional 200,000 South Carolina adults could be 
covered. It is appalling that some South Carolina officials 
continue to pursue efforts to block our citizens from receiving 
health care coverage.
    I am pleased to be seated by our fine, hardworking attorney 
general from South Carolina, a friend of mine. Like me, he is 
privileged to be an elected official. But from his privileged 
place as an elected official and the child of an elected 
official, General Alan Wilson has enjoyed taxpayer subsidized 
health care for most of his life. He has never had to worry 
about having a doctor to see when he gets sick.
    Yet, when it comes to allowing hundreds of thousands of 
South Carolinians to obtain much-needed health coverage, he 
willingly leads the opposition, without offering any 
constructive alternatives to their plight.
    When I go back to the State Senate in January, I am going 
to be facing the first bill up, which is a Republican filed 
bill that will nullify Obamacare. In a chamber which is 
presided over by the portrait of John C. Calhoun, we are going 
to debate nullification in the South Carolina Senate.
    We tried that in the middle 1800s. It didn't work out too 
well for us then, and it is not going to work out too well this 
time. What we are looking for is solutions, not roadblocks.
    Without the expanded health care coverage from the 
Affordable Care Act, uninsured South Carolinians will continue 
to be relegated to emergency rooms across the State or to 
simply suffer in pain without basic care. Treatment in an 
emergency room for non-emergent conditions is the most 
inefficient and most expensive form of care. Expanded coverage 
can allow the newly insured to find a medical home where they 
can be diagnosed and treated for basic human health needs that 
do not require the attention of an emergency room. Medical 
homes will allow patient-focused preventative care such as 
coaching and counseling on nutrition, diet, and physical 
activity, a holistic approach which will lead to cost-effective 
health care.
    It is shameful for us to live in the greatest Country in 
the world and yet have our citizens face the threat of 
bankruptcy merely because they got sick or injured. Economic 
ruin should not be the price of having a sick child. By having 
more of our citizens covered with comprehensive insurance, 
premiums should be lower. We look forward to a time when all of 
our citizens can enjoy the coverage that is enjoyed by General 
Wilson and myself. Some could be covered by expanding Medicaid, 
others by purchasing affordable coverage through the exchanges, 
and yet others through their employment. It is this inclusive 
approach that will allow all South Carolinians to be covered.
    Full implementation of the Affordable Care Act will benefit 
taxpayers. Without expanded coverage, the cost of paying for 
treatment of the uninsured falls now on taxpayers and 
employers. South Carolinians have paid Federal taxes that can 
come home to South Carolina once the expansion is implemented. 
Once every one is covered, medical costs can be more easily 
controlled and premium rates should fall.
    As more people have health care coverage, more providers 
are going to be needed. The expansion will result in an 
economic boost to South Carolina. The training of new providers 
will allow our technical colleges and our universities to grow. 
We have had a university-based research study done in our State 
that says that we can expect 44,000 new jobs from the full 
implementation of the ACA. The salaries from these employees 
and the expanded services will generate millions in annual 
earnings and ultimately new revenue for the State. This is in 
addition to the billions of dollars that will flow back to the 
State from the Federal Government over the next six years.
    Health care in South Carolina is 20 percent of our economy. 
With over 1100 different occupations, health care sectors in 
our State employ 250 South Carolinians. These are good paying 
jobs, jobs built on caring for our neighbors. It is a vital 
part of our economic sector and these are jobs that cannot be 
outsourced
    The Affordable Care Act is a huge net benefit not just to 
those with preexisting conditions, but to our taxpayers, our 
hospitals, our doctors, those who will be newly employed, and 
citizens who will see their premiums reduced. Quite simply, 
South Carolina needs to accept the benefits being extended to 
our citizens if for no other reason than it is the right thing 
to do. Thank you.
    Mr. Lankford. Attorney General Wilson.

             STATEMENT OF THE HONORABLE ALAN WILSON

    Mr. Wilson. Thank you for this opportunity to address the 
committee. I want to deviate from my introduction briefly to 
say that several remarks were made that aren't accurate. 
Earlier, Representative Cartwright mentioned that I was under 
the governor, under Governor Haley. That is not accurate. I am 
an independently-elected official in South Carolina.
    To my recollection, those comments or that quote that was 
attributed to me was not made by me. My opposition was 
presented in our briefs before the United States Supreme Court. 
As attorney general, I am not in the implementation process; I 
am here as an advocate for the consumers of South Carolina. 
Also, I am on government health care, as my good friend, 
Senator Hutto, said, but after 17 and a half years and a combat 
tour in Iraq, I believe I am entitled to be on TRICARE.
    My testimony today has nothing to do with the merits of the 
Affordable Care Act; it has everything to do with the first 
obligation of government: the security and safety of the 
citizens, as well as sharing with Congress the need to 
indefinitely suspend implementation of the Affordable Care Act 
until security risks are mitigated, privacy protections are 
provided, and legally mandated deadlines are properly met.
    Despite the President saying, last month, we are all on our 
way to fully implementing the Affordable Care Act, important 
deadlines are being routinely missed and, more importantly, 
security concerns are being dismissed. An unpublished 
Congressional Research Service meme cited by Forbes last month 
noted that the Administration has missed more than half the 
legally imposed implementation guidelines.
    In order for the ACA to adequately determine eligibility of 
consumers for exchange subsidies, it must create a data hub 
that creates databases from seven different agencies.
    Last week, Centers for Medicare and Medicaid Services 
confirmed the ACA's data hub complies with Federal Standards. 
However, the hub has not been beta-tested, independently 
verified, or properly audited by the inspector general. More 
troubling is the fact that senior HHS technology officials 
lowered previous standards earlier this year by saying let's 
just make sure it is not a third-world experience.
    When it goes live on October 1, it may not be a third-world 
experience, but it will be a con man's all-you-can-eat buffet, 
overflowing with a gold mine of sensitive information from the 
agency databases that fall under the hub.
    This information in the hub should be guarded as if it were 
gold in Fort Knox, not haphazardly. The hub should be at least 
required to exceed minimally adequate protocols which have 
allowed the records of more than 20 million veterans to be 
compromised during at least eight hacks of the VA's unencrypted 
computer system between 2010 and 2013.
    States are also victims of similar attacks. Exactly one 
year ago, more than 3.6 million South Carolinians were put at 
risk when hackers obtained our social security numbers and 
personal information during a major security breach at the 
South Carolina Department of Revenue.
    Such attacks make the hub's insufficient security testing 
that much more troubling. However, that is not our primary 
immediate concern. Last month's letter that was sent by the AGs 
and myself in 12 other States was prompted by the fact that HHS 
is not requiring groups receiving roughly $67 million in 
Navigator grants to properly screen, train, or conduct 
background checks on individuals who will be entering sensitive 
information into the Federal data hub.
    The vice president of a Navigator group which received $1.2 
million in grants for South Carolina said last week in The 
State paper, it is like Girl Scouts selling cookies, you go to 
the shopping centers and set up tables to capture people as 
they come and go.
    The fact is it is more difficult to help Girl Scouts sell 
boxes of cookies than it is to become a health care Navigator. 
While groups like the Girl Scouts require employees to complete 
background checks, there are no such requirements for 
Navigators. This is despite the fact that HHS exchange 
regulations require Navigators to safeguard consumers' 
sensitive personal information, including, but not limited to, 
health, income, employment, tax, and social security 
information. The only requirement for Navigators is that they 
complete 20 hours of online training, less than most States 
require for a driver's license.
    This weekend, newspapers across the Country ran headlines 
such as Rollout of Obamacare spawns slew of scams: Con artists 
are busy dialing seniors and other consumers as they try to 
cash in on the confusion around the Affordable Care Act. Last 
week, the Department of Insurance in our State issued a 
consumer alert due to the proliferation of online, in person, 
and telephone scams.
    The first obligation of government is maintaining the 
safety and security of its citizens. Ironically, the 
implementation of a Federal program designed to provide health 
care to all Americans puts us all at severe risk because it is 
riddled with scams and security breaches. Americans should not 
have to barter their privacy and financial security for health 
insurance.
    Thus far, the Administration's implementation of the 
Affordable Care Act undermines a fundamental responsibility of 
the Federal Government, the security of its citizens. Until HHS 
answers our questions and rectifies this matter by properly 
safeguarding American's personal information, Congress must 
suspend implementation of the ACA. Thank you.
    [Prepared statement of Mr. Wilson follows:]

    [GRAPHIC] [TIFF OMITTED] T5359.005
    
    [GRAPHIC] [TIFF OMITTED] T5359.006
    
    [GRAPHIC] [TIFF OMITTED] T5359.007
    
    Mr. Lankford. Representative Jackson.

         STATEMENT OF THE HONORABLE KATRINA R. JACKSON

    Ms. Jackson. Members of this committee, I serve in 
Louisiana as a State legislator as a member of the House Health 
and Welfare Committee, Joint Committee on Budget, and the 
Committee on Appropriations.
    The United States Supreme Court has emphatically stated 
what the law is relative to health care in the United States of 
America. In upholding the Patient Protection and Affordable 
Care Act. However, we sit here today continuously debating this 
law, instead of working together to ensure that this 
implementation is beneficial to all States and all citizens of 
the United States.
    In a State where almost 900,000, some 20 percent of 
Louisiana's population, is uninsured and the health care budget 
has been cut by 10 percent each year for five consecutive 
years, we cannot afford to decline any portion of the 
Affordable Health Care Act. Our governor advocated for us 
cutting one of the most vital health care services offered to 
any State's constituency, our hospice care, to take care of the 
problem, he said.
    As a State representative who represents Louisiana citizens 
who have entrusted us with the duty to ensure that we do all we 
can to represent them, I cannot, in good conscience, in good 
moral conscience, advocate for the repeal or de-funding of the 
Affordable Health Care Act, for in doing so I would fail an 
overwhelming number of the constituency in my State.
    The secretary of the Louisiana Department of Health and 
Hospitals, who sits next to me today, will neglect to mention 
that she, herself, and her Department published a report that 
reflects up to a $367.5 million savings while offering health 
care to over 400,000 of our uninsured citizens, almost half of 
those on the uninsured roll. Our independent, nonpartisan 
legislative fiscal office arrived at an even higher number in 
savings to Louisiana and its citizens, almost $550 million.
    DHSH will stand before you today on behalf of Louisiana 
complaining about the difficulty in implementing this Act. 
However, they have wasted countless time supporting measures 
such as one that we voted down last session, in this current 
year, which would have required us to take a vote of referendum 
of our people by two-thirds vote in order to enact any portion 
of the Affordable Health Care Act.
    Louisiana spends over $600 million in uncompensated care 
yearly, mainly through DISH dollars that we continuously 
request from the Federal Government. We are one of the top five 
States who receive and expend these dollars. Independent 
reports reflect that the Affordable Health Care Act will save 
the Federal Government approximately 50 percent of all DISH 
dollars spent around this Nation. That is the long-term 
savings. The immediate savings in 2014 show approximately $500 
million in savings to this Federal Government.
    Louisiana's economy, just like many other States, has 
suffered during these tough economic times. The full 
implementation of the Affordable Health Care Act offers an 
injection of $26.8 billion in our State's economy and will 
create over 47,000 jobs in the State of Louisiana. It will 
further aid businesses by contributing greatly to a healthier, 
more productive workforce. The Federal insurance exchange is 
beneficial to those currently paying insurance premiums by 
creating a more competitive market and driving down the costs 
of insurance premiums for everyone.
    Somewhere in Louisiana, and all across this Nation, there 
are younger versions of you and myself who aspire to 
matriculate in institutions of higher learning without having 
to worry about whether they will have insurance or not. The 
Affordable Health Care Act offers them access to the American 
dream, something that most of us have already been through. By 
allowing them to remain covered under their parents' premiums, 
their parents, who are mostly middle-to upper-class citizens, 
have paid for those premiums.
    In each of our great States, just like Ms. Ritter, who sits 
here today, there are families with children or sick parents 
who have been diagnosed with life-threatening conditions and 
have been told that they have reached their mandatory maximum 
of benefits. I say to you today our good conscience tells us 
that we must respond to their needs, and the Affordable Health 
Care Act has done so. But if you don't believe me, a great 
writer once penned our great lord and savior Jesus Christ when 
he told us that what we do to the least of these we also do to 
him. It is time to do what is right.
    Mr. Lankford. Secretary Kliebert.

                  STATEMENT OF KATHY KLIEBERT

    Ms. Kliebert. Good morning. Thank you for the invitation to 
highlight how the implementation of the Patient Protection and 
Affordable Care Act has presented major problems for Louisiana. 
My name is Kathy Kliebert. I am the Secretary of the Department 
of Health and Hospitals in Louisiana. I have served the 
Department for over 25 years, primarily working with 
individuals who have behavioral health challenges and those 
individuals with developmental disabilities.
    Since the Affordable Care Act was signed into law, we have 
repeatedly shared our concerns with the law itself and with its 
implementation. Over the past few years we have seen our fears 
become reality, and our decision to not establish a State-based 
exchange in Louisiana validated. As a complex project with 
often delayed and frequently changing guidance, it is not 
surprising that many States, and even the Federal Government, 
are narrowing the scope of their day one exchange capabilities 
as we near the mandated launch.
    Though this law was passed over three years ago, much of 
the critical guidance and regulations have only been issued in 
this past year, and they continue to change. For example, CMS 
released in June what they claimed to be the final version of 
guidance that will govern interactions between the exchange and 
State Medicaid programs. However, we have since learned that 
new changes are forthcoming, which will likely require 
significant reprogramming efforts for our Medicaid eligibility 
system.
    Critical questions often take three to four months for a 
response, wasting precious time and resources that easily could 
have been avoided and cannot be afforded as we near federally 
mandated deadlines.
    We have also faced conflicting messages and confusing 
misinformation. In just one example, we recently experienced 
confusion about whether pregnancy was considered a qualifying 
life event for women to enroll in the exchanges outside of the 
designated open enrollment period. The Federal Government's own 
website recently changed the definition of a qualifying life 
event, removing the event of becoming pregnant and now stating 
that it is the birth of the baby that qualifies the woman for 
coverage.
    After seeking clarification, we have received multiple and 
conflicting answers from HHS officials. The screen shots 
included in my written testimony, taken just a few weeks apart, 
illustrate this frustrating inconsistency.
    We are also troubled with how HHS is conducting education 
and outreach in States with a Federal exchange, where they have 
assigned much of the responsibility to federally-funded 
Navigators. Named only weeks ago, these groups have had barely 
a month and a half to prepare. There is almost no oversight or 
standards for how they will work, and their training 
requirements have actually been scanned down by HHS.
    We also have serious concerns about the call centers that 
will provide much of the direct consumer assistance. We learned 
from a press release that a call center will be operated in the 
small town of Bogalusa, Louisiana, but its operations are only 
starting this month, meaning their employees will have less 
than a month of training before launch.
    Just last week we were alarmed to hear that a constitute 
who called the exchange hotline was told that many States are 
expanding their Medicaid eligibility. He was told to first call 
the State to see if he may now qualify for Medicaid, even 
though Louisiana has very publicly stated that it will not 
expand Medicaid eligibility. If the Federal call center 
employees are not equipped with such basic information, how are 
they expected to help individuals navigate this enormously 
complex program?
    We have also been frustrated by numerous technical issues 
that have resulted in duplicate efforts for States, 
particularly as it relates to the single streamline application 
for both Medicaid and the exchange and the new Federal data 
services hub. For example, we asked CMS for the ability to link 
directly to the single streamline application being built at 
the Federal level, rather than duplicate those efforts at the 
State level. We were told that each State was responsible for 
building its own application based on the Federal version, 
which was not made available until April of this year. We then 
made multiple requests to CMS this summer for its online 
application source code in order for our contractor to verify 
Louisiana's version. It was never provided to us.
    In March, Federal officials promised to provide States with 
a no-cost solution to meet the newly mandated, Modified 
Adjustor Gross Income standard for Medicaid eligibility. 
However, we learned in a June conference call that we had the 
responsibility. We anticipate that it will take our contractor 
more than 5,000 hours of work to meet all the related mandates, 
for a total cost of $750,000. To frustrate matters further, we 
learned last week the Federal solution was finally ready, far 
too late to be useful.
    While I have only highlighted our major concerns, we expect 
more problems to arise, as October is just two weeks away. 
While these facts raise serious questions about whether 
implementation of the exchanges should be delayed, we continue 
to believe the best solution for our Nation and our State is 
that the entire law be repealed and replaced with a more 
affordable and market-driven solution that gives States the 
flexibility to design programs that best meet the needs of 
their individual populations. Thank you.
    [Prepared statement of Ms. Kliebert follows:]

    [GRAPHIC] [TIFF OMITTED] T5359.008
    
    [GRAPHIC] [TIFF OMITTED] T5359.009
    
    [GRAPHIC] [TIFF OMITTED] T5359.010
    
    [GRAPHIC] [TIFF OMITTED] T5359.011
    
    [GRAPHIC] [TIFF OMITTED] T5359.012
    
    [GRAPHIC] [TIFF OMITTED] T5359.013
    
    [GRAPHIC] [TIFF OMITTED] T5359.014
    
    Mr. Lankford. Senator Sobel.

            STATEMENT OF THE HONORABLE ELEANOR SOBEL

    Ms. Sobel. Good morning, Chairman Lankford, Chairman 
Jordan, Ranking Member Speier, Ranking Member Cartwright, and 
members of the committee. Thank you for extending me an 
invitation to testify today on the Federal Implementation of 
Obamacare. Concerns of State Governments. I am excited and 
eager to elucidate the problems we have encountered and address 
opposition to the implementation of the Affordable Care Act in 
Florida.
    My name is Eleanor Sobel, and I represent the 33rd District 
in the Florida Senate. I was first elected to the Florida 
Senate in 2008 and I serve as chairwoman of the Florida Senate 
Children, Families, and Elder Affairs Committee. I also serve 
as vice chair of the Florida Senate Ethics and Elections 
Committee, as well as vice chair of the Florida Senate Health 
Policy Committee, vice chair on the Senate Select Committee for 
Affordable Health Care, as well as a delegate to the National 
Conference of State Legislators in an overwhelmingly 
predominant Republican Senate.
    I wish I could be here with better news, telling you that 
the State legislature managed to put partisan politics aside 
and expand coverage to millions of uninsured individuals. 
Unfortunately, as you may know, this is not the case. Regular 
session, our spring session, concluded with the legislature 
being unable to pass on a bill to expand coverage.
    I am here to also tell you that the State of Florida is 
actually punishing its people by putting up roadblocks and 
barricades to obtaining quality, affordable, accessible health 
care. The message some of Florida's Republican leaders are 
sending, would you believe, sound something like this: Health 
care is a privilege, not a right, and don't expect help from 
the government. Another message that is going forth was: We are 
here to put up barricades and obstacles, and to create public 
chaos and misinformation all in the name of political warfare.
    The Florida House, Senate, governor, and cabinet are 
divided, split. The Senate wishes to move forward with 
Obamacare. We came up with a bipartisan bill in the Florida 
Senate that was a public-private partnership that actually 
would cover 1.5 million people in Florida, as well as use the 
$52 billion of the money from the Federal Government to help 
implement the program. Our Senate President Gates has also made 
overtures to work with Secretary Kathleen Sebelius. However, 
the House, governor, and cabinet are irrationally and 
ideologically preventing the execution and implementation of a 
policy that the citizens of Florida so desperately require.
    Florida has the second highest percentage of uninsured 
residents in the Nation, at 25.3 percent. Florida has rejected 
again the $5.2 billion over a 10-year period of Federal 
Medicaid money, which would have served 1.5 million Floridians. 
The Florida House will not go along with the Senate's public-
private expansion plans, and Governor Rick Scott often 
contradicts himself, saying he support Medicaid expansion and 
then does an about-face by trying to defeat implementation of 
Obamacare.
    I want to focus on the two most important Florida sandbag 
issues that I have encountered in the implementation of 
affordable health care in Florida.
    Sandbag number one: What is the best way to defeat a 
program? Answer: Make sure no one knows about it or understands 
how it affects the well-being of its citizens.
    Just recently, Governor Scott has implemented a policy that 
would prevent the 60 Departments of Health from carrying out 
much needed education to the uninsured, claiming that health 
care education, known as Navigators, will be allegedly 
violating HIPAA laws. This is a desperate attempt to prevent 
access to those who need health insurance the most.
    Sandbag number two: Last session, the Florida legislature 
passed a bill that handcuffed the insurance commissioner to use 
his State authority to negotiate lower rates of premiums for 
two years. Affordable insurance is a key part of Obamacare. 
Although Florida has agreed to a federally-run marketplace, the 
Federal Government can only rule if rates are reasonable or 
unreasonable, but cannot negotiate lower rates. We needed the 
insurance commission to provide the lowest rates possible so 
people would sign up. Hopefully, tax credits will reduce costs 
and make insurance affordable.
    We must find a way to put aside Florida's differences and 
move forward with the Affordable Care Act. We must move forward 
with this very, very important Act and rectify Florida's 
political stalemate. Thank you very much for your 
consideration.
    Mr. Lankford. Representative Hudson.

           STATEMENT OF THE HONORABLE MATTHEW HUDSON

    Mr. Hudson. Good morning, Chairman Lankford, Chairman 
Jordan, and members of the committee. Thank you for inviting me 
to speak with you today. My name is Matt Hudson, and I am 
honored to represent District 80 in the Florida House of 
Representatives. I also chair the Florida House Health 
Appropriations Subcommittee, serve as vice chair of the Florida 
House Select Committee on PPACA, and cochair of the National 
Conference of State Legislatures Health Committee. I am also a 
Florida realtor.
    Remember when you bought your first home? You saved money, 
found a home you liked. And then what if your realtor had 
handed you a contract and you had to review it and three of the 
pages were blank, and then when you questioned it they said 
trust me? I am positive none of you would have invested your 
money that way. I am positive that the citizens of Florida 
expect their government to make well-informed decisions, not 
based on Federal promises like trust me. But that is exactly 
what the ACA has forced us to do.
    What we do know doesn't look very good. The ACA will make 
our health workforce shortage even worse and has led to 
skyrocketing premiums. It has kept States uninformed and puts 
consumers' privacy at risk through the insurance exchanges. And 
its Medicaid expansions threaten patients' health and 
taxpayers' bottom line.
    The ACA will make our health workforce shortage even worse. 
By 2020, we will have a national shortage of more than 90,000 
physicians and 1.2 million nurses. In Florida, about 13 percent 
of our physician workforce is retiring in the next five years, 
and we are currently already short 753 doctors in our 248 
primary care crisis areas. A massive influx of Government-
subsidized health care recipients, because of the ACA's 
insurance exchanges and Medicaid expansions will make things 
much worse. Because of the ACA, patients will face even longer 
wait times and worse access to specialty care. Costs will 
obviously spike as the demand for limited health care services 
will dramatically increase.
    The ACA will drive patients' premiums higher. We were 
promised the ACA would let us keep the plan we like and the 
doctors we trust, but the premium increases resulting from the 
web of new regulations and mandates make that an empty promise 
for millions of Floridians. The Florida Office of Insurance 
Regulation projects that our small group and individual market 
premiums will rise an average of between 5 and 40 percent. Will 
these folks have to choose between prohibitively high premiums 
and fear of Government-run health care or no coverage at all? 
Where is the promise in that?
    Washington isn't providing answers about insurance 
exchanges or protecting citizens' privacy. As Florida weighed 
whether the State or the Federal Government would build a 
State-based exchange, we had questions that needed answering. 
These questions were included in a three-page November 2012 
letter from our House speaker and our Senator president to HHS. 
They did not respond until January, after our exchange decision 
deadline. And the response was just three brief paragraphs that 
did not answer any of our questions.
    Based on the final HHS rules for federally-facilitated 
exchanges, Florida made the right decision in rejecting a 
State-based exchange. Still, the time line and HHS's non-
cooperation made an informed decision process impossible.
    What we did know is that the exchange applicants will have 
to hand over social security numbers, birth dates, employment 
information, tax returns, and much more, all the information 
needed for identity theft, and we took action. Florida passed a 
law that required the registration of exchange Navigators, 
which included background screenings, disqualifications for 
certain crimes, and penalties for improper actions.
    Medicaid expansion is wrong for patients and taxpayers. 
Medicaid is already a problem across the Nation; access is 
limited and outcomes are poor. The only randomized control 
trial of Medicaid ever conducted found no improvements in 
health when compared to the uninsured. Still, the Federal 
Government continues to push Medicaid expansion in Florida.
    We rejected a Medicaid expansion to add another million 
people to the Medicaid rolls because we knew access problems 
would get much worse. And it has been difficult to estimate 
true costs of expansion. In Florida, official cost estimates 
for Medicaid expansion range from less than $30 billion over a 
10-year period to nearly $55 billion.
    And then as we learn more about expansion, cost estimates 
for Florida portion went from $1.4 billion to $3.5 billion. And 
even these estimates assume that the Federal Government will be 
able to keep its funding promises, despite carrying $17 
trillion in debt.
    States deserve answers to these questions. Washington is 
notorious for passing laws and leaving States to figure out how 
to make them work. In the case of ACA, we deserve to have our 
concerns heard.
    Thank you, members of the committee, for giving me the 
opportunity to talk to you today, and I look forward to your 
questions.
    [Prepared statement of Mr. Hudson follows:]

    [GRAPHIC] [TIFF OMITTED] T5359.015
    
    [GRAPHIC] [TIFF OMITTED] T5359.016
    
    [GRAPHIC] [TIFF OMITTED] T5359.017
    
    [GRAPHIC] [TIFF OMITTED] T5359.018
    
    [GRAPHIC] [TIFF OMITTED] T5359.019
    
    [GRAPHIC] [TIFF OMITTED] T5359.020
    
    [GRAPHIC] [TIFF OMITTED] T5359.021
    
    [GRAPHIC] [TIFF OMITTED] T5359.022
    
    [GRAPHIC] [TIFF OMITTED] T5359.023
    
    [GRAPHIC] [TIFF OMITTED] T5359.024
    
    [GRAPHIC] [TIFF OMITTED] T5359.025
    
    [GRAPHIC] [TIFF OMITTED] T5359.026
    
    Mr. Lankford. Thank you.
    Thank you to all of you for your testimony, both your 
written testimony and your oral testimony as well. We 
appreciate your participation in this.
    I seem to get a feeling we have two different views today. 
The difficulty is one group is talking about the dream of what 
these benefits might someday do and what they might actually 
occur one day if everything works, and another group that is 
dealing with the reality on the ground of implementation and is 
not the dream of what might one day become, but what is 
currently right now and the problems we face.
    We have a challenge dealing with this law, to say the 
least, but implementation is very often the State and the 
employer and the individual challenge, as every individual has 
to figure out some way to determine whether their employer has 
provided them qualified health care and determine what does 
that mean, or whether they qualify for a subsidy; and if they 
get that guessed wrong, they will be penalized on their income 
tax later for getting that guess wrong; or if their dad works 
somewhere and they take out insurance and get the subsidy, if 
they will be penalized because they took the subsidy that 
because their dad's employer should have covered them and all 
of that convoluted mess that has become this.
    We cannot ignore employers like IBM. Walgreen's today, on 
the front cover of the newspaper, has shifted their insurance. 
Did not shift their insurance because they thought it was the 
right time, they shifted their insurance because they were 
dealing with the ACA. Unions continue to step up and say there 
are major problems and issues, we wish these would be 
addressed.
    There is the dream of what we hope it will be and the 
reality of what is on the ground. We have the responsibility to 
deal with the reality on the ground, and to get questions and 
to be able to work through what is the solution at this point.
    Attorney General Wilson, you wrote a letter August the 
14th, with other attorneys general, and asked some very 
specific questions to HHS. Do you recall some of those 
questions and issues that you asked in August?
    Mr. Wilson. Yes, I do. In fact, I have the letter here with 
me. I believe it was provided to the members of the committee, 
but we can provide that.
    Mr. Lankford. We can have that in the record.
    Mr. Wilson. Our concerns, and, again, I am not here today 
as an implementer, because that is not my role as attorney 
general. I am here as an attorney for the State, the citizens 
of South Carolina, and as a consumer advocate. And the 
questions we outlined in the letter dealt with screening of 
personnel, guidance to program personnel of the Navigator, so 
to speak, the monitoring of personnel.
    Other areas of concern were who bears the liability; is it 
the exchange, is it the individual navigator, is it the 
sponsoring group that receives the grant funds? What notice to 
consumers are they going to get? Fraud prevention and remedies 
was another area that we asked questions under. We had 
questions about penalties, as well as supplemental State 
regulations; what can the States do, without running afoul of 
preemption issues, in protecting our citizens.
    So our questions, we sent this letter to HHS. We are still 
waiting on an answer.
    Mr. Lankford. So no response at this point.
    Mr. Wilson. No response at this point that I am aware of.
    Mr. Lankford. Okay.
    Lieutenant Governor, you seem to a person that is trying to 
obstruct something that is going to help people and take care 
of people. Yet you speak of taking care of people for free and 
caring for the folks. You also speak of $3400 just last week, 
an additional compliance cost in your office, and I can't 
imagine what that is multiplied around the Country of millions 
of dollars of additional compliance costs that has been added 
to it. My question for you is what could the State of Kansas do 
to take care of their people, or have they already done 
something to be able to take care of their people that need 
health care?
    Dr. Colyer. This is not a simple answer. There is not just 
one single answer, but let me give you a couple of examples. 
The States of Kansas, unlike almost every other State, we have 
overhauled our entire Medicaid system. We did not throw anybody 
off our system; we did not cut rates. But we are able to save 
$1 billion. And by competing it out, we actually are giving 
everybody now three choices, where they didn't have choices 
before. And in that bidding process we actually got additional 
services for people and are starting to look at long-term 
health care outcomes.
    In the State legislature we passed a bill that got rid of 
mandates so that people could have a choice on a more 
affordable insurance option now in the State of Kansas. We have 
worked on this in a whole variety of areas, medical homes, our 
indigent clinics, and working on this in a very comprehensive 
way.
    Mr. Lankford. So there are State solutions that you are 
proposing on this.
    Dr. Colyer. Absolutely.
    Mr. Lankford. I am going to be real close on time, just to 
let everyone know, the five minute time. Because of the number 
and we have two different subcommittees together, I am going to 
try to stick right on the five minute time for questioning on 
that.
    So, with that, let me recognize Ms. Speier.
    Ms. Speier. Mr. Chairman, thank you, and I will abide by 
your time frame as well.
    Let me just say I was very impressed to hear that the 
chairman of the full committee now is of the opinion that we 
should be fixing the Affordable Care Act, not repealing it. 
Unfortunately, I regret that he is not here right now because 
last year he was a cosponsor of H.R. 2, which was in fact a 
bill to repeal the Affordable Care Act. So he has had a change 
of heart, it appears, based on his comments today, and I am 
pleased to hear that.
    Let me start by asking each of you do you receive health 
insurance as government employees through your States? Just 
raise your hand if you do.
    So everyone except for the attorney general. You receive 
yours through TRICARE, is that correct?
    Mr. Wilson. That is correct.
    Ms. Speier. All right. I know why you receive it through 
TRICARE, because with TRICARE, which is what my brother has, 
you pay $500 a year for health care. It is pretty remarkable 
that that insurance is available.
    Mr. Jordan. Would the gentlelady yield for a second?
    Ms. Speier. No, I am not going to yield. I have very few 
seconds in my opportunity, so I think we are all just going to 
be able to ask our questions.
    So let me ask you all this. The presentations that you have 
provided today, particularly the Republican representatives, 
were pretty remarkable in that they were elaborate, they were 
footnoted. And I am curious when were you asked by the 
committee to participate in this hearing.
    Dr. Colyer. About Wednesday or Thursday of last week. I 
think Thursday.
    Ms. Speier. Okay. Attorney General?
    Mr. Wilson. A week or two ago.
    Ms. Speier. A week or two ago. All right.
    And Secretary Kliebert? Thursday?
    Ms. Kliebert. Thursday.
    Ms. Speier. And Representative Hudson?
    Mr. Hudson. Mid last week, Wednesday or Thursday.
    Ms. Speier. Mid last week.
    So pretty impressive that you have been able to put 
together those kinds of statements with footnotes. I mean, that 
is something I did when I was in college, and I didn't do it 
very well. I guess my question to you is did any of you have 
any assistance; anyone help you develop your statements?
    Dr. Colyer. Sure. Actually, Ren, my staffer, and our staff, 
we were literally working at this footnoting this at 1 a.m. on 
Monday morning.
    Ms. Speier. All right. Thank you.
    Attorney General Wilson?
    Mr. Wilson. Yes, my staff and I prepared the remarks.
    Ms. Speier. All right.
    Secretary Kliebert?
    Ms. Kliebert. Yes, certainly. My staff that is involved in 
the implementation and involved in our Medicaid program helped, 
as well.
    Ms. Speier. Representative Hudson?
    Mr. Hudson. Yes, Florida House Health Policy staff.
    Ms. Speier. All right. To your knowledge, did any of them 
do this in conjunction with ALEC, the American Legislative 
Exchange Council? They are very similar, many of them drafted 
in a way that would suggest that there was collaboration.
    Dr. Colyer. No.
    Ms. Speier. No?
    Mr. Wilson. Not to my knowledge, no.
    Ms. Kliebert. No.
    Mr. Hudson. No.
    Ms. Speier. All right. Thank you.
    Let me then move forward with the one minute and 33 seconds 
that I have left and ask a couple of questions. Bobby Jindal, 
who is the governor of Louisiana, recently said, ``We don't 
think it makes any sense to implement Obamacare in Louisiana. 
We are going to do what we can to fight it.''
    Ms. Jackson, in your opinion, is it a significant challenge 
to the ACA implementation when the chief executive of a State 
is so strong-willed in their commitment and interest in not 
implementing the law of the land?
    Ms. Jackson. It has been one of the most difficult 
challenges. Passed himself as an elected official, basically 
attempting to prohibit the implementation. Every letter sent to 
the Department of Health and Hospitals from any Health and 
Welfare Committee member or any legislature has been met with 
delay, and sometimes we have been told that it was not part of 
the public records request.
    It is also difficult, if I can, when you have a secretary 
of Department of Health and Hospitals, with all due respect, 
who has only been there six months and trying to implement a 
major privatizing of our Medicaid-Medicare program as we speak, 
along with attempting to obstruct this implementation.
    Ms. Speier. I thank you, and my time has expired.
    Mr. Lankford. Thank you.
    Chairman Jordan.
    Mr. Jordan. I thank the chairman.
    Let me just start first with the reason I asked if the 
gentlelady would yield is my guess is, and the attorney general 
can speak for himself, but my guess is the reason he has 
TRICARE is because he wore the uniform of our Country and 
served our Nation. I believe even served in combat, is that 
correct, attorney general?
    Mr. Wilson. Yes, correct.
    Mr. Jordan. Well, we appreciate your service, and you are 
simply getting what you are entitled to.
    Lieutenant Governor, let me start with you. You are a 
physician and elected State-wide. Do you think it makes sense 
to delay the Affordable Care Act?
    Dr. Colyer. Yes, it does.
    Mr. Jordan. Okay.
    Attorney General Wilson, you represent an entire State as 
well. Your job is to look out for consumers. You have asked 
questions of HHS and CMS; they have yet to answer your 
questions. Do you think it makes sense to delay the Affordable 
Care Act?
    Mr. Wilson. From a security and privacy interest 
standpoint, I do. One other comment, I would like to know what 
plan under TRICARE allows me to pay $500 a year, because I pay 
nearly $200 every month.
    Mr. Jordan. Your wife would probably like to know that too.
    Mr. Wilson. My wife wants to know where we get that plan.
    Mr. Jordan. Let me go to you, then, Senator Hutto. So based 
on what you said in your testimony, you probably disagree with 
the guys on either side of you. You think that the Affordable 
Care Act should move forward and the law should go ahead and be 
fully implemented, is that correct?
    Mr. Hutto. That is correct. I won't tell you that it will 
be seamless.
    Mr. Jordan. Let me ask you a couple questions. Let me ask 
you a couple questions. Was Howard Dean wrong when he said the 
Independent Payment Advisory Board is essentially a health care 
rationing body? Was he right or wrong when he said that about 
the Affordable Care Act?
    Mr. Hutto. I don't think it is going to be a rationing 
body, no.
    Mr. Jordan. Was head of the Teamsters, James Hoffa, wrong 
when he said that this law is going to hurt working Americans 
and fundamentally change the 40-hour work week? Was he wrong?
    Mr. Hutto. I think he was.
    Mr. Jordan. He didn't know what he was talking about?
    Mr. Hutto. We are going to have to work through this.
    Mr. Jordan. Was AFL-CIO wrong last week, at their 
convention in Los Angeles, where they said fix the bill or 
repeal the whole darn thing? Were they wrong?
    Mr. Hutto. Yes.
    Mr. Jordan. They are wrong too. Okay. Was Senator Baucus, a 
guy who helped write the bill, head of the Senate Finance 
Committee, pretty accomplished public servant, was he wrong 
when he referenced that this bill was a train wreck?
    Mr. Hutto. That was taken out of context, but yes.
    Mr. Jordan. He was wrong too. Okay. And Warren Buffett 
yesterday, probably most people would said a fairly sharp 
individual, made a few dollars in his life, was he wrong 
yesterday when he said we should scrap the entire bill?
    Mr. Hutto. We have to fix the bill.
    Mr. Jordan. Was he right or wrong? So far everyone has been 
wrong and you are the only one who has been right.
    Mr. Hutto. That is not what I am saying. What I am saying 
is that we need to work together.
    Mr. Jordan. The President's hometown newspaper, three weeks 
ago, lead editorial, final paragraph of the editorial said, 
delay the entire law. Chicago Tribune endorsed the President 
both times he ran for the President. Were they wrong when they 
said delay the entire bill?
    Mr. Hutto. That is their opinion.
    Mr. Jordan. Their opinion. But I am asking you were they 
right or wrong.
    Mr. Hutto. I think they were wrong.
    Mr. Jordan. This is amazing. We need to have you up here 
more often, because you are right and everyone else is wrong. 
Let me ask you this. Do you still say this bill should be 
implemented when Kroger, a major employer in our State, 
announced last week that 11,000 employees and their spouses 
would no longer be covered by their insurance? Is that a good 
thing? Is that a good result for the Affordable Care Act?
    Mr. Hutto. That is not a good thing, but I am sure there 
are alternatives.
    Mr. Jordan. United Parcel Service announced recently that 
15,000 workers and their spouses and families would no longer 
be covered. Is that a good thing?
    Mr. Hutto. It is going to be a good thing when hundreds of 
thousands of new people are covered.
    Mr. Jordan. Let me just turn to the attorney general. You 
deal with protecting consumers in your State, so when a company 
offers a product and they have a guarantee, and someone 
purchases that product and the guarantee is not met, the 
consumer gets a chance to take the product back and get 
something new or get their money back.
    But what we have here is we have the guarantee that if you 
liked your insurance, you would be able to keep it. And we just 
know Kroger, UPS, University of Virginia, Trader Joe's, and I 
could name a whole bunch of other companies, are now telling 
people because of the Affordable Care Act you will no longer be 
able to keep the product you thought you were going to be able 
to keep. That, to me, if for no other reason, that is why we 
should delay it, because the guarantee that the President said 
and everyone who supported this bill said was going to be in 
place is no longer in place. Would you agree?
    Mr. Wilson. Yes.
    Mr. Jordan. All right.
    Mr. Chairman, I yield back.
    Mr. Lankford. Mr. Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman.
    And thank you to all the witnesses who came here today to 
share your expertise and your insights on the implementation of 
the Affordable Care Act. An exciting time in America. October 
1st is time to start getting signed up for the health care law. 
To make sure we get the word out, it is Healthcare.gov. Get 
right on there, enter your information. It is going to be easy 
and it is going to be interesting, and it is a new dawn in 
American health care.
    I want to start with you, Attorney General Wilson, and I 
want to thank you for correcting my misstatement. You work with 
Governor Nikki Haley, not under her, and I appreciate that. In 
fact, I also want to thank you for your military service. I 
don't care if you are Democrat, Republican, pro-ACA, anti-ACA. 
If you deliver military service like what you did, you deserve 
the thanks of all of us.
    And I want to expand on our discussion of Governor Nikki 
Haley. Were you attempting to distance yourself from her remark 
about the importance of de-funding Obamacare in Congress? Were 
you trying to get away from that remark?
    Mr. Wilson. No, representative. What I am trying to do is I 
am trying to appear today here, I am an elected official, but I 
am trying to wear the State's lawyer hat. I fought Obamacare in 
the court all the way to the U.S. Supreme Court. In fact, the 
Supreme Court agreed with the States and NFID on every issue we 
presented except for the fact whether the mandate was a tax or 
penalty. But we lost the fight, so now, if it is the law of the 
land, my job is now, as the lawyer for the citizens of South 
Carolina and as a consumer advocate, to ensure that their 
information is protected.
    Mr. Cartwright. Well, general, you are a prosecutor. You 
know what a yes or no question is. Yes or no, do you agree with 
Governor Haley when she says everybody else in Congress needs 
to de-fund Obamacare?
    Mr. Wilson. I believe it is good policy, yes.
    Mr. Cartwright. You agree with that. And is that why, when 
you were engaged in the fight in the Supreme Court, arguing 
that the ACA is unconstitutional, is that why you made the 
public comment publicly comparing the ACA to committing 
robbery? Is that why you did that?
    Mr. Wilson. I don't recall that comment. I don't dispute 
that I made it, but I don't recall it.
    Mr. Cartwright. All right, I want to switch over to you, 
Senator Hutto. You made the comment that my brother, 
Congressman Jordan's quote of Senator Baucus was taken out of 
context. Congressman Jordan has not been bashful about doing 
that, talking about the train wreck. The full context was that 
Senator Baucus said, and meant, that if the ACA is not 
implemented properly, the way it is meant to be done, it could 
turn into a train wreck. Is that your recollection?
    Mr. Hutto. Absolutely. And I think what he is saying is we 
need to work together to make sure it is fully implemented 
correctly.
    Mr. Cartwright. Thank you, sir.
    I want to jump over to you, Senator Sobel. It is a pleasure 
to have you here, Senator. All the things that you have done to 
help seniors and health care in Florida. I want to remind 
everybody that Senator Sobel has been talked about by the South 
Florida Sun Sentinel as ``a strong voice in Tallahassee for 
education, health care issues, and senior citizens services.'' 
So welcome. Nice to have you here, Senator.
    You have heard about what we have been talking about here. 
This hearing is about challenges facing ACA implementation. 
This week it was reported that, in Florida, Governor Scott 
issued a directive banning Navigators from operating on the 
grounds of county health departments in Florida. Senator Sobel, 
in your opinion, was this move intended to obstruct 
implementation of the Affordable Care Act?
    Ms. Sobel. Yes, I believe so. These health departments have 
the kinds of people that actually need health care; they go to 
these health departments because they don't have a private 
physician, they don't have health insurance. And by not 
allowing them on the property, and some of these properties are 
owned by counties, by the way. Broward County owns its own 
properties, so they worked out a compromise that they could 
work outside and sign people up. But that is not good enough 
because you cannot get to people who don't show up on that day, 
but showed up in the past. And this is a tremendous group of 
people who desperately need health care, and Governor Rick 
Scott is denying them that access and information.
    Mr. Cartwright. Thank you for that.
    I yield my time.
    Mr. Lankford. Thank you.
    Chairman Issa.
    Mr. Issa. Thank you, chairman.
    General Wilson, I heard your testimony. I apologize, we 
have a classified briefing going next door on another program 
of interest, but you said something a moment ago: this is the 
law of the land, right? But you have an opinion that there are 
some aspects of this law that were defective in how they did 
things, and let me just run you through one of them.
    Under the Act, currently, my State, Ms. Speier's State, 
Medicaid, the poorest of Medicaid recipients, it is a 50/50 
deal; the Federal Government throws in 50 percent on Medicaid, 
the State pays 50 percent. Under the Affordable Care Act, for 
the first three years it is 100 percent paid for by the Federal 
taxpayer; afterwards, it is supposed to go to 90 percent.
    Now, isn't it a legitimate concern of States that a promise 
to pay more for less poor people, less needy people at 90 
percent, where the more needy people are being reimbursed at 50 
percent, and 100 percent for the first three years, is 
inherently likely unsustainable; that in fact the bargain in 
the Act that we had to pass before we could read it created a 
situation in which some of these things are simply not 
believable? Is that correct in your assumption?
    Mr. Wilson. That is correct.
    Mr. Issa. And in your State of South Carolina wasn't that 
one of the reasons that the governor had concerns, is that it 
is all going to be sugar from the Federal Government for the 
first three years, and then after that it is at the whim of 
Congress that is borrowing a trillion dollars a year, right?
    Mr. Wilson. That is correct.
    Mr. Issa. Now, in the case of the recent release of 2400 
personal social security numbers, even before the Act was 
implemented, isn't that one of your concerns, that this highly 
personal information, the question of what your social security 
number is, but the question of whether or not you are being 
treated for venereal disease or you have a persistent illness 
of some sort or whether you are a diabetic, all of that is 
exactly the kind of information that you are charged to make 
sure does not become public, since that is historically private 
information.
    Mr. Wilson. Yes, that is correct.
    Mr. Issa. Now, the conversation about people coming into 
county health centers and so on, isn't compliance with HIPAA, 
making sure that only doctors and cleared medical professionals 
have access to this kind of information, as to what you or I or 
anyone else is receiving by way of medical concern, isn't that 
a legitimate concern of letting basically a salesman into a 
hospital or clinic facility?
    Mr. Wilson. That is correct, and that is a concern I had 
about HIPAA not applying to potential navigators that are 
helping people enroll in the exchange.
    Mr. Issa. But these navigators will in fact be gathering 
exactly the information that HIPAA is supposed to prevent from 
going into people not very specifically cleared, true?
    Mr. Wilson. It is very potential, yes.
    Mr. Issa. Well, Ms. Speier perhaps paraphrased what I said, 
and I want to make sure we get it correct here. I think that 
the Affordable Care Act currently will be a train wreck. It 
doesn't answer serious questions about cost and privacy. Now, I 
was saying, and, Ms. Speier, I want to make sure I am clear, 
there were problems when President Obama came in that had not 
been addressed; rising cost of health care, an interesting 
cliff that causes people to choose to not earn more than a 
certain amount, because if you earn less than a certain amount 
in America you have $20,000 or $30,000, maybe $40,000 worth of 
benefits that come to you. When you earn a little more, you 
lose those benefits. The Affordable Care Act, in my opinion, 
even exacerbates that more because of the nature of the means 
testing and so on.
    So do I want to address the issues of cost of health care, 
access of health care? Absolutely. And I would make it clear, 
and any member on the dais can get more information from our 
staff, we have been working on a change to FEHBP to make it 
compliant with the exchange systems, if you will, that are 
envisioned in the Affordable Care Act. We are responding to, at 
least as to the 2.4 million Federal workers and the 8 million 
covered individuals, the reality of a law.
    But don't confuse my votes repeatedly to repeal as either 
only wanting to repeal or somehow not being against the 
Affordable Care Act. I believe that a bill that was 100 percent 
partisan, voted on without a single Republican vote or any real 
input, that we had to pass it before we could read it, and that 
has material flaws which are numerous in fact is a bill that 
should be started over again.
    Having said that, I appreciate our panel and I am going to 
continue to hear what you have to say. I would note, because 
the ranking member is not here, that I want to thank all the 
witnesses. I have checked, and all of you came here without the 
Federal Government paying you a dime to come here. So since you 
all came on your own dime, I would like to add to the list the 
thank you.
    With that, Mr. Chairman, I yield back.
    Mr. Lankford. Mr. Cardenas.
    Mr. Cardenas. Thank you very much, Mr. Chairman.
    My first question is to Mr. Hudson. In your submitted 
testimony you stated, ``These provisions require insurance 
companies to accept all applicants, even if they wait until 
they get sick before applying for coverage, and the insurance 
companies are now prohibited from charging premiums based upon 
likely costs.'' Is that accurate?
    Mr. Hudson. Thank you. Yes.
    Mr. Cardenas. Okay. Are you referring to the guaranteed 
issue and community rating provisions of the Affordable Care 
Act?
    Mr. Hudson. Yes.
    Mr. Cardenas. Okay. Thank you for clarifying that. 
Personally, I can't understand why you would oppose these 
important consumer protections in the Affordable Care Act. A 
recent analysis by the Department of Health and Human Services 
estimates that between 50 million and 129 million non-elderly 
Americans have some kind of preexisting condition. Without the 
guaranteed issue and community ratings protections in the 
Affordable Care Act, these preexisting conditions would put 
them at risk of not being able to obtain health insurance if 
they are self-employed or experience some other change in life 
circumstances.
    I think, for example, we heard the story of Aqualine Laury, 
she was here earlier, which Ranking Member Cummings described 
in his opening statement, as illustrative of the importance of 
these consumer protections in the Affordable Care Act. Due to a 
preexisting condition, a heart condition that she had suffered 
from since 1990, Ms. Laury has been unable to obtain consistent 
health care coverage since 2005.
    In 2005, when her insurer rescinded her coverage and left 
her with a $50,000 medical bill. Thankfully, she was able to 
obtain insurance through a high-risk pool established by the 
Affordable Care Act and was covered when she had a heart attack 
this past May. I am grateful for that. She is able to be here 
with us today.
    Another question, Mr. Hudson, in the State of Florida, if 
somebody suffers a heart attack and they do not have insurance, 
what is the likely scenario from that moment forward? I would 
assume that if somebody has a heart attack and somebody 
witnesses it, let's just say an ambulance shows up, what is the 
likely scenario after that, when the ambulance shows up and 
tries to attend to somebody without insurance who just had a 
heart attack?
    Mr. Hudson. Thank you for the question. I would assume it 
would be the same in your great State of New Mexico.
    Mr. Cardenas. No, I am from California. Continue.
    Mr. Hudson. California. Excuse me. Where, frankly, EMS 
would try and revive that person to the best of their skills 
and ability, and they would transport that person to a 
hospital. In my State, that is prohibitively challenging, as I 
have eight counties without hospitals.
    Mr. Cardenas. Okay. Now say that person was fortunate to 
arrive at a hospital and then their condition was in fact 
adhered to, say they revived that person, say that person had 
some kind of surgery or what have you, then there comes a big 
list of expenses. What would happen to that list of expenses 
when that person without insurance ended up showing up at the 
hospital due to a heart attack, then what would happen with the 
bottom dollar, the bottom line of that expense? What would 
likely occur with that expense, would the State eventually end 
up picking up some of that cost, perhaps the hospital would 
absorb a portion or all of that cost? What is the likely 
scenario?
    What committee are you chairman of in the State Senate in 
Florida?
    Mr. Hudson. It is the State House, and it is Health 
Appropriations.
    Mr. Cardenas. Okay. So what would likely happen to that 
dollar amount, whether it is $40,000, $80,000, $120,000, 
whatever?
    Mr. Hudson. Likely what would happen is that patient would 
be treated, would be stabilized under your Act of EMTALA, and 
then sent home after they had been stabilized. The cost of the 
care could be incorporated under charity care through that 
particular hospital, it could be facilitated by DISH funds or 
low income pool funds.
    Mr. Cardenas. Okay. So to my point, ladies and gentlemen, 
the Affordable Care Act is trying to find a solution to all of 
those situations in the great State of Florida and the great 
State of California, and every State in the Nation, what the 
Affordable Care Act is trying to address, and that is the 
overall cost and who will bear that cost at the end of the day, 
and trying to provide a system that actually is better than the 
system that we have today, because I know exactly what happens 
when that occurs; the person who actually had the heart attack 
does not bear the burden of that and the insurance companies in 
the State of Florida or California do not inherently bear that 
burden, it will eventually be a taxpayer system that will bear 
that burden and/or a private or public hospital that actually 
adhered to that patient who suffered a heart attack and got 
administered some health care.
    So what we need to understand, ladies and gentlemen, and I 
will end quickly, Mr. Chairman, thank you so much, is that the 
Affordable Care Act is trying to transition into a system that 
is more appropriate for this great Country to address the ills, 
the health care ills of all Americans, and the current system 
leaves 50 to 129 million out because they have preexisting 
conditions, and those people with preexisting conditions who 
don't have health care will end up in the system and costing 
American taxpayers even more.
    Thank you very much, Mr. Chairman.
    Mr. Issa. Would the gentleman yield? Would the gentleman 
yield?
    Mr. Cardenas. My time has expired.
    Mr. Lankford. His time has expired, but I will extend 30 
seconds to you.
    Mr. Issa. Just quickly for a question. So if I understand 
correctly, the Affordable Care Act, which costs hundreds of 
billions dollars of taxpayers' money replaces the idea that 
taxpayers pay money. Didn't you make essentially the point that 
the taxpayer is going to pay it under the Affordable Care Act 
involuntarily and the taxpayer is already paying it? People are 
not failing to get care, under the Affordable Care Act you 
simply have taxpayers paying for the insurance in addition to 
paying for somebody if they go to the hospital.
    Mr. Cardenas. That is an interesting interpretation. That 
is not what I said. At the end of the day, under a new system, 
if we implement the Affordable Care Act properly, what we are 
going to have is more Americans with health care coverage and 
true access to health care, unlike what we have today. Thank 
you.
    Mr. Lankford. The challenge is even CBO has said at the end 
of it, full implementation, we will still have about 31 million 
Americans still not covered.
    Mr. Cardenas. With an M, not a B, right? Thirty-one million 
Americans?
    Mr. Lankford. Thirty-one million, yes.
    Mr. Woodall.
    Mr. Woodall. Thank you, Mr. Chairman, and thank you all for 
coming.
    I am from the great State of Georgia. This is my insurance 
commissioner that you see up there on the wall. And candidly, 
Mr. Chairman, I couldn't tell if that was you or the ranking 
member who put that up there, because what I am going to tell 
you will not surprise you at all. Ralph Hudgens, our insurance 
commissioner, love Georgians. He loves people and he cares 
about people, which is why he got involved in public service 
and ran to be our insurance commissioner. It is a 
constitutional office in our State, insurance commissioner, and 
what he said there is we talk about how to get coverage for 
Georgians, how to get affordable care for Georgians, and he 
said Obamacare is actually the problem and I am going to do 
everything I can to obstruct it from creating those problems.
    I have a high deductible medical savings account. My policy 
was outlawed by the President's health care bill. Now, I can 
afford to buy a more expensive policy, but a lot of folks in 
Georgia who relied on those high deductible policies can't 
afford to buy something.
    What I wanted to ask you all, representing different States 
and different opinions, what is it in the President's health 
care bill that you like, that is going to be valuable for your 
constituents back home, that you and your State, with your 
governor, with your legislature, with your insurance 
commissioner, that you all couldn't have done on your own if 
you thought it was the best plan for your State? What is it 
that you needed the benevolence of the Federal Government for? 
What permission did you need from Washington to implement some 
of these things that are really going to pay off for your 
constituents back home?
    If I could start with you, governor.
    Dr. Colyer. Nothing. I mean, solutions are best where it is 
local, and all of our States have different problems and 
different solutions. We have a number of solutions that we 
could do here in the State. It is all of these regulations that 
are there. Sure, we would like to have the money in the State 
so that we could implement some things there, but there are so 
many strings attached that it really gets in the way of a lot 
of things that prevent us from getting better outcomes.
    Mr. Woodall. Senator, let me ask you. I actually went to 
school in South Carolina. My understanding is the very modest 
health care plan that I had in college is now outlawed as well, 
so students will no longer be able to have that. But what is it 
that South Carolina is going to benefit that you all couldn't 
have done in the senate with your governor and your insurance 
commissioner?
    Mr. Hutto. What we are looking forward to is not using the 
emergency room as the medical home for so many people, and the 
money that we are going to get from the Federal tax dollars 
that our citizens pay coming back to us is going to help us 
implement that.
    Mr. Woodall. I talk about that regularly. I don't have any 
dollars to spend except the dollars your constituents send to 
me and that I turn around and give back. I am pretty sure we 
take a cut off the top, but I am glad that folks see that as a 
glass that is half full, that some of those dollars will come 
back.
    Mr. Attorney General, is there anything that is going on in 
South Carolina that you needed the Fed's permission in order to 
implement?
    Mr. Wilson. I am a strong federalist. I believe that the 
problems can best be solved by the States, with a few 
exceptions. But I have looked at the numbers. It has been a 
year, but it would have been cheaper for the Federal Government 
just to cut a check to every American who didn't have health 
insurance, as opposed to basically create this huge goliath of 
a bill. It would have been cheaper just to write a check and 
give it to people without insurance than do this.
    Mr. Woodall. That is the way my math looked, too, Attorney 
General. Though, in fairness, President Clinton and Newt 
Gingrich, Republicans and Democrats, came together in 1996 with 
HIPAA to solve all of these preexisting problems for federally 
regulated plans. We just said at that time States are pretty 
smart folks, they have smart people running those programs, so 
we won't get into their business.
    I would ask you, Ms. Jackson, in 1996 we said let's leave 
it to the States, the States will love their constituents more 
than we do. Is there something that you were unable to do to 
serve your constituents that you needed our permission from 
Washington to get done?
    Ms. Jackson. Of course, if you had heard any of my 
testimony today, I talked specifically about our State governor 
and the Department of Health and Hospitals advocating for 
cutting hospice care for those uninsured patients. We couldn't 
even provide hospice care. And to the extent that we were 
trying to regulate interstate commerce, then, of course, you 
know the States are limited on their regulation of interstate 
commerce, which are most insurance companies; and that argument 
has been made at the Supreme Court.
    Mr. Woodall. So when you are thinking about what you can 
and can't do in Louisiana, you are saying you all don't have 
enough money to get these things; you are counting on us taxing 
other Americans and you will be getting more than your fair 
share?
    Ms. Jackson. Oh, not at all, sir. What we count on is that 
the money we send to the Federal Government that our taxpayers 
in Louisiana pay would be distributed in a manner that we can 
take care of all citizens in our State, just like other States 
count on that as well. But we do pay Federal taxes, and to that 
extent we are afforded, or should be afforded, our rightful 
share of those Federal taxes, and that is the problem.
    Mr. Woodall. There is no question about that, and I suspect 
that is something you will find good bipartisan support on.
    Madam Secretary, is there something that Louisiana really 
needed the Fed's permission to get done?
    Ms. Kliebert. I don't think anybody could be more 
passionate than myself about providing uninsured care for our 
citizens. However, I believe several things: one, we have done 
a very good job providing uninsured care. We have had a State 
charity system. We have recently changed that to a public-
private partnership, which has eliminated a two-tiered system 
for the uninsured. We don't use the emergency rooms as our 
medical homes; we have opportunities for people to receive 
outpatient care, as well as follow-up care after they have 
received inpatient care, if needed, for every uninsured person 
in our State.
    I actually believe that implementation of the Affordable 
Care Act will be detrimental to those that we are trying to 
help in the long-run.
    Mr. Woodall. That is what we believe in Georgia, as well, 
but I look forward to sharing our ideas with you all and you 
all sharing your ideas with us. I am convinced if we have 50 
different projects going on here, we are going to find at least 
one that successfully serves America, and we can implement it.
    Ms. Kliebert. We definitely would love to have flexible and 
outcome-driven health care, and we believe that we can do that 
within the system that we have without having the complications 
of the implementation of that.
    Mr. Woodall. Thank you, Madam Secretary.
    Thank you, Mr. Chairman.
    Mr. Lankford. Thank you.
    Representative Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman. I would like to 
yield my time to the gentleman from Pennsylvania, the ranking 
member of the Subcommittee on Economic Growth, Job Creation and 
Regulatory Affairs, Mr. Cartwright.
    Mr. Cartwright. Thank you, Congresswoman Duckworth.
    Senator Sobel, I want to return to you. You are from 
Florida and I am from Pennsylvania. In my home commonwealth we 
have a figure of uninsured citizens of almost 12 percent. That 
pales in comparison to the 25.3 percent uninsured in your 
State, so obviously, in your position, with your set of values, 
this is something that you have been worrying about, something 
you have been working on for many years, am I correct in that?
    Ms. Sobel. Yes, sir.
    Mr. Cartwright. So I want to follow up. Senator Sobel, do 
you believe that your Governor Scott is investing the resources 
necessary to ensure that Florida residents have the information 
they need to enroll in affordable quality health care in the 
Affordable Care Act exchanges?
    Ms. Sobel. Thank you very much for that very good question. 
I don't believe that there has been anything budgeted or used 
by the governor to inform people about the Affordable Care Act.
    Mr. Cartwright. So we all know that getting on 
Healthcare.gov is easy enough for young people, but you have 
some folks in Florida that may not be as facile with computers. 
They are the people that need us to go the extra mile to make 
sure they understand how to sign up. Is the Florida 
administration doing everything it needs to be doing to help 
those people?
    Ms. Sobel. The Florida administration is not, to my 
knowledge, doing much or anything to educate the people about 
this program, and I believe the best way to kill a program, 
destroy a program is not to get the information out to the 
people who actually need that information. So it has become a 
formidable task to make this program a success and to have the 
people get the health care that they need in a way that they 
understand it.
    Mr. Cartwright. So let's you and I give Governor Scott some 
help, shall we? Tell us, what should Governor Scott be doing to 
ensure that implementation of ACA, the law, goes smoothly?
    Ms. Sobel. Well, first of all, I think that he should allow 
the health departments to allow the navigators on the premises 
and to work with the people in the health department. I also 
think that he should be establishing a website probably in the 
State, which we might have one, but nobody knows about it, 
telling people about the Affordable Care Act. I believe that he 
should be speaking about it in his conferences, press 
conferences, as well as sending out information that is now 
available. None of that is happening.
    Mr. Cartwright. Now, switching gears for the moment, the 
rate review provisions in the ACA require insurance companies 
to justify any proposed rate hike of 10 percent or more. Last 
year, this provision saved 6.8 million consumers in this 
Country an estimated $1.2 billion in health insurance premiums. 
Unfortunately, in Florida, the legislature recently passed, and 
Governor Scott signed, legislation stripping Florida's 
insurance commissioner of the authority to review health 
insurance rate hikes.
    Congressman Joe Garcia, my colleague, has called this move 
``a cynical attempt to undermine protections for Florida's 
consumers in order to sabotage the implementation of the 
Affordable Care Act.''
    Senator Sobel, do you agree?
    Ms. Sobel. Yes, I do agree with the handcuffing of our 
insurance commissioner. At this particular time, he can only, 
well, first of all, previously, he could have negotiated the 
rates. Right now he can't say anything or do anything for the 
next two years.
    Mr. Cartwright. So what is the point of just doing this 
giveaway to health insurance companies?
    Ms. Sobel. Well, I think the underlying premise here is 
that the rates will be so high people will not sign up, and you 
lose the affordable in the Affordable Care Act, and that is 
wrong. But the insurance commissioner has indicated, and 
rightfully so, that there are tax credits to be had, so the 30 
to 40 percent rates that he is talking about, of an increase, 
will be mitigated with the tax credits people will get for 
signing up, but the headlines are 30 to 40 percent.
    Mr. Cartwright. And it is misleading. Well, thank you very 
much, senator.
    Mr. Lankford. Thank you.
    Mr. Bentivolio.
    Mr. Bentivolio. Thank you, Mr. Chairman. Mr. Chairman, the 
committee has obtained an internal memorandum from May 28, 
2013, detailing serious concerns about the ability to certify 
and register Navigators and Assisters in the Obamacare Consumer 
Outreach Program. The memo reads: We are becoming increasingly 
concerned about the ability of CMS staff to authenticate, 
register, and certify everyone who will be involved in the 
consumer assistance process.
    I would like to enter this memo in the record.
    Mr. Lankford. Without objection.
    Mr. Bentivolio. Later, though, another top official 
testified that HHS decided to leave the responsibility of 
certifying and registering to each Navigator organization. HHS 
rejected the option of creating a list of all certified 
Navigators and Assisters. The lack of a list exposes consumers 
to significant risk, since consumers that call the HHS hotline 
will be unable to verify if a person offering to provide them 
information about Obamacare is working for a legitimate 
organization.
    Were you aware that there is no way for citizens in your 
State to contact HHS to verify if a person offering information 
about Obamacare is working for a legitimate organization, 
Lieutenant Governor?
    Dr. Colyer. That is a very troubling aspect because there 
is going to be a lot of confusion overall, and we need good 
information, and you need time to get good information there 
and you need to be able to verify that.
    Mr. Bentivolio. Attorney General Wilson?
    Mr. Wilson. Yes.
    Mr. Bentivolio. Secretary of Health Kliebert?
    Ms. Kliebert. Yes.
    Mr. Bentivolio. Mr. Hudson, are you aware of a poll that 
was released last week, 68 percent of Americans believe 
Obamacare will harm their health care, 56 percent of Democrats 
believe Obamacare will harm their health care? Are you familiar 
with that poll?
    Mr. Hudson. Yes, sir, I have seen the headlines on that.
    Mr. Bentivolio. Okay. I have another question. I am just 
going to twist things around a little bit. You said you were a 
realtor, correct?
    Mr. Hudson. Yes.
    Mr. Bentivolio. Okay. Now, if I understand a realtor's job, 
you bring a customer in, they are thinking of buying a home, 
you talk to them, find out what kind of home they want, you 
look at the listings, you show them the listings, maybe a 
photograph, correct? You ever sold a home to somebody?
    Mr. Hudson. Yes, sir, I have sold many homes to first-time 
home buyers.
    Mr. Bentivolio. How about somebody that never walked into 
the home you sold them? Did they get to look at all the rooms? 
Did they get to go in the basement, if you have basements? In 
Florida, I don't know, I think they are on slabs, a lot of 
them, right?
    Mr. Hudson. Basements are a challenge for us.
    Mr. Bentivolio. Basements are a challenge. Yes, I 
understand. Okay, well, in Michigan we have basements. So 
before a person buys, they get to walk in and go into each 
room, maybe test the appliances, correct?
    Mr. Hudson. Yes, sir.
    Mr. Bentivolio. Okay.
    Mr. Hudson. In fact, if I can add, I would never sell a 
home to someone that didn't know what they were actually 
bargaining for, because, frankly, that is one of the single 
largest investments in their life, their personhood, their 
entire family, and doing so is reckless and inappropriate.
    Mr. Bentivolio. And before they buy that home you give them 
the documents, you go over the purchase agreement with them, 
you tell them what they are getting, right, and what they are 
not getting, correct?
    Mr. Hudson. That is absolutely correct, as well as a number 
of other disclosures that will help them fully understand their 
purchase so that they are well informed and knowledgeable. The 
days of caveat emptor are gone, and should be under the 
Affordable Care Act as well.
    Mr. Bentivolio. So you would let your customers read the 
contract before they signed it, correct, or at least have their 
attorney or a representative read the contract, correct?
    Mr. Hudson. You are absolutely correct, sir.
    Mr. Bentivolio. But, senator, you disagree with that. You 
think we should, as legislators, vote for something that we 
didn't have the opportunity to read before we voted for it.
    Mr. Hutto. No, but there has been plenty of time now. It is 
a complex law and it is going to be tough. We need to roll up 
our sleeves and implement it.
    Mr. Bentivolio. So I have a bill on th floor right now, or 
not on the floor, but in the hopper, that basically is called 
Read the Bill's Act. You wouldn't be a cosponsor, but I suspect 
you would be, correct?
    Mr. Hudson. Absolutely, sir.
    Mr. Bentivolio. Thank you very much.
    I yield back my time, Mr. Chairman.
    Mr. Lankford. Would the gentleman yield to me? I think we 
had 20 seconds or so. Would the gentleman yield?
    Mr. Bentivolio. I yield.
    Mr. Lankford. Just for Ms. Kliebert, you had mentioned 
before, as well, about conflicting messages on pregnancy as a 
life event. Has that been resolved yet, or are you still 
waiting for details on that?
    Ms. Kliebert. We are still waiting for details. And it 
really affects us because our policy decisions in terms of how 
we will treat that population, it affects how we will move 
forward on that policy. But we have not heard back.
    Ms. Speier. Would the gentleman yield?
    Mr. Lankford. It is actually the gentleman's time. Mr. 
Bentivolio? Would the gentleman yield to the gentlelady?
    Mr. Bentivolio. Yes.
    Ms. Speier. To the secretary, isn't the reason why there is 
not a willingness to allow someone to acquire insurance once 
they know they are pregnant because we don't want people to 
game the system and not access the insurance when the insurance 
is available to them, and they choose, instead, to just pay the 
tax?
    Ms. Kliebert. I am not sure in terms of the rationale. All 
we want is an answer as to whether or not that is or is not a 
qualifying condition so we can make our policy decision on 
that.
    Ms. Speier. But since there is an individual mandate of 
everyone actually takes up the insurance, then there wouldn't 
be an issue about a life-changing event because, in fact, you 
would already have insurance. The only time it would play a 
role would be if in fact you chose not to take insurance and, 
instead, pay the $300 fee, correct?
    Ms. Kliebert. Correct.
    Mr. Lankford. So it is not the gentlelady's position that 
we wouldn't give some kind of prenatal care at that point 
because someone didn't pay the penalty.
    Ms. Kliebert. Correct.
    Ms. Speier. No. I think, though, the point is that an 
individual mandate is trying to make sure that we all take 
personal responsibility. That is one of the precepts of the 
Republican party, personal responsibility. We are going to 
provide a health care opportunity for every American to access 
health care, and we are going to keep the cost down, but if you 
choose not to, and this is a free Country, if you choose not 
to, then you can pay a fee, which would mean that you are not 
going to access that health care. But that is a choice.
    So if in fact you do become pregnant, then you are going to 
be paying out of pocket. We, of course, want you to have 
prenatal care. If you are indigent you will get prenatal care. 
But if you are making $75,000, $100,000 a year and you choose 
not to have health insurance and you get pregnant, well, you 
had an offer to have health insurance and you chose not to 
access it. I think that is why you are getting some question as 
to whether or not it is a life-changing event.
    Ms. Kliebert. Again, we just want a definite answer so that 
we can move forward on any policy decisions we need to make as 
a State.
    Mr. Lankford. And just for quick clarification, they don't 
pay a fee, they pay a tax.
    Ms. Speier. Yes.
    Mr. Lankford. Mr. Connolly.
    Mr. Connolly. I thank the chairman. Before my time starts 
counting, I would ask unanimous consent that the extra one 
minute and ten seconds provided my good friend and colleague 
from Georgia be extended to me.
    Mr. Lankford. No, that was in a response. If you ask a 
question at the last second, I am going to allow that person to 
be able to respond.
    Mr. Connolly. I thank the chair.
    By the way, my friend from Georgia mentioned Newt Gingrich. 
Senator Hutto, do you happen to recall the reason then Speaker 
of the House Newt Gingrich opposed the Clinton health care 
initiative? The single most important reason he objected to the 
1993 initiative, do you recall?
    Mr. Hutto. I don't.
    Mr. Connolly. It was that it lacked a universal mandate, an 
individual mandate. Senator Hutto, intellectually, was that a 
liberal think tank that came up with the idea of an individual 
mandate?
    Mr. Hutto. It was not, but things have been turned on their 
head.
    Mr. Connolly. It was actually a conservative think tank 
idea.
    Mr. Hutto. Yes.
    Mr. Connolly. Now it is socialism.
    Mr. Hudson, you introduced some legislation, H.B. 1193, in 
2011, to prohibit a person from being compelled to purchase 
health insurance, objecting to the individual mandate, is that 
correct?
    Mr. Hudson. That is correct.
    Mr. Connolly. And you just testified to Mr. Bentivolio 
that, as a realtor, you really believe in disclosure, full 
disclosure so that a consumer is fully aware of the strengths 
and pitfalls of a potential purchase.
    Mr. Hudson. That is correct.
    Mr. Connolly. When you introduced your bill, did you happen 
to mention that it was modeled almost identically on something 
provided by ALEC? Page 12 of that booklet pretty much mirrors 
your legislation. Were you aware of that?
    Mr. Hudson. If you are referring to something called the 
Health Care Freedom Act, that was actually sponsored by 
Representative Plakon. I was a cosponsor.
    Mr. Connolly. No, sir. I am referring to a model bill on 
page 12 of that brochure provided to a conference I think you 
attended. Did you not attend an ALEC conference where this was 
discussed?
    Mr. Hudson. I don't have that book in front of me.
    Mr. Connolly. So you were not aware of the fact that your 
legislation happens almost identically to mimic a model bill 
that ALEC was encouraging State legislators such as yourself to 
introduce into their respective legislatures? Is that your 
testimony under oath?
    Mr. Hudson. There are a number of pieces of legislation 
that are supported by a wide variety of----
    Mr. Connolly. Not my question. Were you or were you not 
using or aware of the ALEC model on page 12, I have it here, 
that almost identically mirrors the legislation you introduced?
    Mr. Hudson. Yes, sir, that is correct, I was aware of it.
    Mr. Connolly. So did you review----
    Mr. Hudson. I would like to finish my question. I was not 
not civil to you.
    Mr. Connolly. This is my time, Mr. Hudson, and I am asking 
you a question about whether you were aware or not. Your 
answer, I believe, for the record is you were.
    Mr. Hudson. It is absolutely true.
    Mr. Connolly. Did you reveal that to your colleagues? 
Because you have just said how committed you are as a realtor 
to full disclosure. Was there full disclosure, when you 
introduced that bill, that you were modeling it on a national 
conservative movement funded by the Koch brothers and that this 
came from their legislative initiative?
    Mr. Hudson. Yes. When we had discussions on this, the term 
of ALEC did come up.
    Mr. Connolly. Thank you.
    Mr. Attorney General, you talked about your view about 
States' rights. South Carolina has a long tradition about that 
issue. I am just interested in your philosophy of the law. When 
you lose in a legislative battle and something becomes law, 
even then you voted against it, and then you lose through the 
legal system up to the Supreme Court, and the Supreme Court 
upholds the constitutionality of that law, do you think, as 
attorney general, it is still okay to try to obstruct its 
implementation because you just don't agree with it? Is that 
your legal philosophy?
    Mr. Wilson. No, that is not my legal philosophy.
    Mr. Connolly. Thank you. So would you take issue with this 
gentleman, whoever he is, that maybe that is really not a very 
good legal strategy?
    Mr. Wilson. You use obstruct very broadly. My concern is 
that a law can be constitutional and still be bad policy.
    Mr. Connolly. Sure.
    Mr. Wilson. And the debate should continue. Now, I believe 
Obamacare was unconstitutional. The Supreme Court disagreed 
with me and I have to live with that decision. But that doesn't 
negate the fact that Obamacare, in my opinion, is still bad 
policy, and we have a duty as elected representatives to 
continue to try to improve it as long as it is going to be the 
law of the land, and that is what we are here to do today.
    Mr. Connolly. I couldn't agree with you more if that is 
what you mean. But obstruction, that word, his, not mine, is a 
different matter.
    Mr. Chairman, I think I have a little extra time, and I 
yield the balance of it to----
    Mr. Lankford. Actually, you have none. I was just saying 
that Mr. Woodall's response was--the witness was responding to 
his question at the end, and that is the reason it went long. 
But I have been very careful on time and have been very fair 
with everyone on that.
    With that, I recognize Mrs. Lummis.
    Mrs. Lummis. Thank you, Mr. Chairman.
    Question for Lieutenant Governor Colyer, Secretary 
Kliebert, and Representative Hudson: Does Obamacare raise 
premiums in your State? Does Obamacare raise insurance premiums 
in your State? Do you know?
    Dr. Colyer. We have not had the full release of what it 
does to premiums across the board for that, and the Federal 
Government has not released that information for us.
    Mrs. Lummis. Okay, thank you.
    Dr. Colyer. However, we have an example. When we have gone 
to the website, all of the examples it shows a dramatic 
increase in cost.
    Mrs. Lummis. Madam Secretary?
    Ms. Kliebert. For some groups up to 200 percent. Again, we 
don't have all the details in terms of what it is going to mean 
for every different type of population, but we do have data 
that indicates for some groups it will go up to a 200 percent 
increase.
    Mrs. Lummis. Representative?
    Mr. Hudson. Like my colleagues before me, we lack a 
tremendous amount of actuarial value to be able to make good 
discerning judgments regarding that, and as the rules have 
continued to change. We can project, and the projections are 
not good, they will go up.
    Mrs. Lummis. Lieutenant Governor, does Obamacare reduce 
choices in your State?
    Dr. Colyer. Absolutely it reduces choices, in the scope of 
plans that people can choose and also in the number of insurers 
that are in the exchange.
    Mrs. Lummis. Madam Secretary, same question.
    Ms. Kliebert. We currently believe there will be four 
exchanges. In our Medicaid plans we now have five choices for 
individuals who have Medicaid recipients. So in those 
instances, if you compare the two, it will reduce some level of 
choice.
    Mrs. Lummis. Representative Hudson, do have an answer to 
that? Same question.
    Mr. Hudson. Yes, it will definitely reduce choice.
    Mrs. Lummis. What is the overall view of the citizens of 
your State with regard to Obamacare? Again, Lieutenant 
Governor?
    Dr. Colyer. Kansans are overwhelmingly against it. They see 
the economic impact and how it affects their health care.
    Mrs. Lummis. Madam Secretary?
    Ms. Kliebert. We have had several polls, as well as debates 
within the legislature that indicate that overwhelmingly there 
is not a will to move with expansion or towards some of the 
implementation of the Affordable Care Act.
    Mrs. Lummis. Representative Hudson?
    Mr. Hudson. Floridians are absolutely opposed to it, and 
they recognize in our State, like many States, that the rural 
areas are going to be disproportionately affected. Lack of 
choice, lack of access, and tremendous challenges with 
workforce, which makes things almost impossible to implement. A 
one-size-fits-all doesn't work well in clothing; it doesn't 
work well in this either.
    Mrs. Lummis. Thank you.
    Attorney General Wilson, question for you. Obamacare's 
implementation has problems: delays and will lead to greater 
State spending, higher insurance premiums, and greater burdens 
on business. Can you tell us how the law is impacting the 
citizens of your State? How are the delays impacting the 
State's ability to comply with the new Federal requirements as 
well? So the question is two-fold, the State's ability to 
comply; individual's impacts.
    Mr. Wilson. Well, let me qualify by saying that, 
independently, that is not something I am qualified to comment 
on. It is my opinion, my personal opinion that it will 
adversely affect our citizens and our State. My one thought, 
Representative, is that I am begging Congress. If they want to 
criticize the criticizers of Obamacare, if they want to 
criticize me and other folks who share my view, I welcome that, 
that is part of our American process.
    But look at the questions we are asking as consumer 
advocates and look at that independent of Obamacare. We have a 
duty as elected officials to protect the citizens, and I think 
right now we are getting into a debate on the merits of 
something that has been decided, instead of how to make it 
better going forward, and I am begging Congress to look at the 
questions the AGs have asked. Thank you.
    Mrs. Lummis. Lieutenant Governor, could you describe the 
regulation process and how it is impacting Kansans as citizens 
and the Kansas government as well?
    Dr. Colyer. There are some issues of transparency. Here it 
is two weeks before, we don't know what all of the rates are. 
We are getting new software updates. We have a new software 
update coming sometime before October 1st, so even if the 
Navigators can't be trained, up to date on that. We are having 
to work overtime to try to comply.
    Mrs. Lummis. Considering that the President of the United 
States, after whom the bill is named, is the person who has 
done the most to delay implementation of Obamacare, do you 
think it is appropriate to say that the obstruction is coming 
from outside the White House?
    Dr. Colyer. No. I wish they could block a number of other 
areas as well.
    Mrs. Lummis. Thank you, Mr. Chairman. I yield back.
    Mr. Lankford. Thank you.
    I recognize the ranking member, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Ms. Sobel, I would like to ask you about the important role 
that Navigators will play in helping the uninsured sign up for 
benefits under the Affordable Care Act. By the way, in my 
district, I just had 400 people Saturday morning to come out, 
trying to find out more about this. The attorney general, I 
talked about making government work, they came out because they 
wanted to take advantage of the law. As a lawyer, I am trained 
to look at the law, and, as a legislator, to uphold the law.
    Ms. Sobel, according to a memorandum released this morning 
by the Minority staff of Energy and Commerce, Navigator grant 
recipients will directly enroll nearly 1.1 million uninsured 
people in the exchanges and in Medicaid. They also expect to 
inform an additional 7.3 million people through public 
education efforts about the benefits of the Affordable Care 
Act.
    Moreover, according to the memorandum, many of these 
organizations are experienced in precisely the type of outreach 
necessary to get people enrolled in the exchanges. They have 
linked families in need with public and private benefits for 
which they are eligible, such as food stamps, Medicaid, 
disaster assistance, S-Chip, the Medicare Part D benefit, by 
the way, which a number of people on this side of the aisle 
were against, but yet and still, when it became the law, we did 
everything in our power to make sure our constituents were 
informed of it, and the low income subsidy for Part D benefit.
    Finally, according to the memorandum, there is strong and 
effective privacy protections in place in the Navigator 
Program. All grant recipients must abide by laws that prohibit 
the use or disclosure of personally identifiable information or 
face stiff criminal and civil penalties. Many of the grantees 
have adopted additional privacy practices for their staff above 
and beyond those required by the Federal regulation and have a 
proven track record of responsibly handling sensitive personal 
financial and health data in the course of their work.
    Ms. Sobel, I think we can agree that implementing the 
Affordable Care Act is a heavy lift. I am not saying that there 
aren't any legitimate privacy concerns or that we shouldn't 
examine the issues of data security and Navigator training. But 
do you think that Governor Scott's decision to ban Navigators 
from operating on the grounds of county health departments was 
a necessary or even a remotely proportionate response?
    Ms. Sobel. Thank you for that very good question. I 
basically think it is a roadblock; it is a sandbag. He 
overreacted. There are standards in place from the Affordable 
Care Act about Navigators, as well as Florida having in place 
criminal background checks and other standards that the State 
put forward. I think that this is an effort to stop people from 
enrolling, and it is just unfair, not right, and it hurts a lot 
of people who need the information.
    Mr. Cummings. I told my constituents on Saturday, I said it 
is one thing to have opportunity; it is another thing to know 
about it and then to be able to take advantage of it. Do you 
believe that this and many of the other onerous regulations 
that Republican State officials and legislatures across the 
Country have imposed on Navigators are motivated by desire to 
delay, hinder, and obstruct enrollment in the exchanges?
    Ms. Jackson, could you answer that? Did you hear my 
question? I said do you believe that this and many of the other 
onerous regulations by Republican State officials and 
legislatures across the Country have imposed on Navigators are 
motivated by desire to delay, hinder, and obstruct enrollment 
in the exchanges?
    By the way, I might add that it just came over the wire 
that the Republican conference, Speaker Boehner said this 
morning, talking to the Republicans in Congress, every member 
in this room is for de-funding Obamacare, while letting the 
rest of the Government continue to operate.
    Ms. Jackson. I totally agree with what you are saying. As a 
practicing attorney and a legislator in the State of Louisiana, 
I have seen so much obstruction of this law. It somewhat 
reminds me of what I learned in my history lessons about the 
civil rights structures and the right to vote that was given to 
minorities. States began to obstruct those, and in Louisiana we 
have seen just that example with the Federal Affordable Health 
Care Act, that there has been a major obstruction.
    Mr. Cummings. Mr. Chairman, I would just like to enter into 
the record the staff report from the Commerce Committee.
    Mr. Lankford. Absolutely. Without objection.
    Mr. Cummings. Thank you very much.
    Mr. Lankford. Mr. Horsford.
    Mr. Horsford. Thank you, Mr. Chairman. I am going to be 
quick because I have a number of points.
    First, Mr. Attorney General, just so that you know, on 
Wednesday, September 11th, 2013, the House Committee on 
Homeland Security Subcommittee on Cybersecurity, 
Infrastructure, Protection and Security Technologies had a 
hearing on this very subject around the data hubs, where we are 
with the implementation. In your testimony you talked about 
deadlines not being met. Those were on-the-record responses 
that were provided by the auditor, the OIG who oversees this, 
and the result was the deadline was met. So while we want to 
have talking points that say something else, the reality is 
different.
    Mr. Chairman, I attended a brain health trust in my 
district this last Saturday and one thing that was made clear 
to me is there is more work to be done on the implementation of 
the Affordable Care Act; the outreach that is necessary, the 
education that is necessary, the fact that people need to 
understand that this is in large part about expanding care 
under Medicaid and expending benefits under Medicare, and 
adopting a new marketplace under the exchange.
    I want to say our governor, who happens to be a Republican, 
who was part of the lawsuit with other States that challenged 
the constitutionality of the Affordable Health Care Act at the 
time I served in the State legislature, allowed his director of 
Health and Human Services to continue to work on the 
implementation of the bill until the outcome of the Supreme 
Court's determination. And because he made that decision, 
Nevada is ahead of the mark on the implementation of our 
marketplace exchanges. They have agreed to expand Medicaid. Our 
Navigators have been recruited and trained, and are ready to do 
their job. And this from a Republican governor who did not 
agree with the law. But he understood his job was to implement 
the law as it was adopted by Congress and upheld by the Supreme 
Court.
    So in my State I have far too many constituents who will 
benefit under the Affordable Care Act to not see it 
implemented. Is it perfect? No. Does this Congress need to do 
its job to make the necessary adjustments? Yes. And I am glad 
to hear that Mr. Jordan shares my concern and those concerns of 
Labor, particularly the AFL-CIO, on a provision of the bill 
that does need a congressional fix; and I would ask him, even 
though he is not here, if he will join me in bringing forward 
legislation so that we can fix that and other provisions.
    Let me ask my couple of questions.
    Senator Hutto, what happens to the millions of Americans 
who now have health coverage if the opponents of the ACA are 
successful?
    Mr. Hutto. Well, we hope that they are not going to be 
successful. If they are successful, people could lose coverage 
that they have now. We hope that won't happen.
    Mr. Horsford. Representative Jackson, how would it affect 
your constituents if suddenly they had to worry about insurance 
companies rescinding their insurance because of preexisting 
conditions?
    Ms. Jackson. I think we will be in the same boat that we 
were in a year ago when the governor of our great State asked 
us to defund hospice care. We would begin to look for solutions 
that really weren't solutions and our constituency would not be 
offered any health care at all; and, if offered health care, 
very minimal, and forced to go into emergency rooms when there 
are dire need situations in health care.
    Mr. Horsford. And Senator Sobel, more than 32.5 million 
seniors have already received one or more free preventative 
services because of the Affordable Care Act. Can you express to 
the subcommittees the importance of these services to your 
constituents?
    Ms. Sobel. Absolutely. And if the bill is repealed, I 
believe that there would be greater hardships for our seniors. 
It would be sinful and shameful to repeal any part of the 
benefits that have already passed.
    Mr. Horsford. So, Mr. Chairman, you know, I know that there 
are those on the other side who have differing opinions about 
where we are with the Affordable Care Act, but after hearing 
from my constituents, small business owners, those in health 
care in my State, I believe that it is time for us to stop 
having these continual efforts to defund the Affordable Care 
Act and it is time for us as Congress to do our jobs in 
implementing it and moving forward, and I would use my home 
State of Nevada as an example of how Republicans and Democrats, 
the governor, the legislature, and members here in Congress, 
are working to do our job and not obstructing the Affordable 
Care Act.
    Thank you, Mr. Chairman.
    Mr. Lankford. Thank you.
    I recognize, for just some closing comments, Ranking Member 
Ms. Speier.
    Ms. Speier. Mr. Chairman, thank you.
    First of all, let me say to Attorney General Wilson I too 
am very grateful for your service to this Country. I was trying 
to make the point that all of us here have the great luxury of 
having a Government-sponsored health insurance plan to benefit 
from. And the hope is that for the 45 million Americans who 
have no insurance whatsoever, that the Affordable Care Act will 
place them on equal status with all of us.
    Let me also point out there is a script that is being used 
that isn't accurate, and when people talk about the Affordable 
Care Act as costing us so much money, that couldn't be further 
from the truth. In fact, the very nonpartisan Congressional 
Budget Office has said that we will save $1.3 trillion over the 
next two decades with the implementation of the Affordable Care 
Act. Now, as a Country, we spent 18 percent of our gross 
domestic product on health care, 18 percent, more than the next 
10 biggest spenders in the world, including Japan, Germany, 
France, China, the U.K., Italy, Canada, Brazil, Spain, 
Australia combined. And you might think, well, we get better 
health care, but the fact of the matter is we do not. In fact, 
we rank 38th in the World Health Organization's ranking of 
countries in terms of the quality of their health care. We rank 
number one in spending and 38th in overall health care.
    Now, the reference made by my good friend, Mr. Jordan, and 
by others on the other side of the aisle about the comment made 
by Max Baucus has been taken out of context and, Senator Hutto, 
you made reference to it. And I would like to just point out 
what was really being said by Senator Baucus. There was $554 
million requested by the President in his budget for promotion 
and advertising and education on behalf of the Affordable Care 
Act.
    Our good friends on the other side of the aisle chose to 
strike that funding completely, and it was with that backdrop 
that Senator Baucus said that without promotion, without 
education that there is going to be a train wreck relative to 
the implementation because people aren't going to know about 
it. So when we use the term train wreck, let's use it 
accurately as it reflects Senator Baucus' comment.
    With that, I would like to point out, finally, that the 
hand-wringing that is going on here is all well and good, but 
the truth of the matter is that starting October 1st there will 
be six months in which people will have the opportunity to 
enroll. They will have the opportunity to enroll until March. 
Lots of these kinks will be worked out during that period of 
time, and I think that it would be better for all of us to not 
be the obstructionists that some have suggested.
    And I would like to end by quoting Governor Snyder from 
Michigan, a Republican, who said, and said it very well, it is 
the law of the land upheld by the U.S. Supreme Court, and it is 
being implemented. Some believe that fighting it is good 
politics. I believe that finding a way to make it work for our 
State is good government.
    I yield back.
    Mr. Cummings. Would the gentlelady yield for that one 
minute?
    Ms. Speier. I certainly will.
    Mr. Cummings. Thank you very much.
    I just want to thank all of our witnesses for being here 
today. We may disagree, but the real deal is we are talking 
about our fellow Americans. We are talking about our brothers, 
our sisters, our neighbors, and there are people who, and I was 
just, like I said, in my district this weekend talking to some 
of my constituents, and there are people who really need this.
    I tell the story about when we voted for the Affordable 
Care Act I got to the Floor of the House four hours early. I 
sat on the front row and I had only one prayer. I said, God, 
don't let me die before I vote for it. And the reason why I 
said that is because I knew it would save lives. I knew that it 
would affect generations yet unborn. I knew that it would allow 
some mother to be able to save her child. I knew it would have 
a tremendous effect.
    We have to make it work. I am tired of people saying it is 
hard, this is hard. Well, a lot of things are hard. We are 
America. We are better than that. So I am looking forward to 
all of you all working with us not about de-funding, not about 
destroying, but trying to make it better.
    With that, I yield back, and thank you, Mr. Chairman.
    Mr. Lankford. I would thank the witnesses for coming and 
being a part of this dialogue. This is in your lap in a lot of 
ways, as far as implementation; you are the one on the phone 
trying to get answers, writing letters trying to get answers, 
dealing with the implementation on the ground, and many of you 
will be on the first line of that phone call, trying to be able 
to get things resolved.
    In my State, they gathered all the State leaders together 
last week from all the different agencies that have any 
connection and they had a long list of all the unanswered 
questions, and they wanted to get everyone together so they 
could pool it and find out what everyone knew and get all those 
answers so everyone could share it. What they did instead is 
they got all the State leaders together, listed the questions, 
and none of them had the answers. All of them assumed someone 
else knew this and they just weren't sharing it. None of them 
knew what is going on.
    So, again, the focus of, gosh, this is going to be great is 
very different when you have to implement and when it is coming 
at you, and the questions come to you. I would commend to 
anyone's reading, on this committee and outside this committee, 
the Navigator report that was done by this committee dealing 
with the issues of fraud, dealing with the exposure areas that 
we have that are a real risk to consumers.
    We have had a hearing on the data hub to ask some of the 
questions that should be asked about security because a lot of 
Americans' information is about to be exposed. But with the 
Navigators and all that is happening in the days ahead, and as 
we have seen the reduction of time that is now required in 
their training and what is there, there are serious issues.
    I know the ranking member has mentioned we are 38th in the 
world in health care. I would say in my district, in Central 
Oklahoma, we have more advanced cancer care in Oklahoma City 
than in all of the U.K. We had a hospital open in Oklahoma City 
that is a straight fee-based hospital, and they were surprised 
to see that the first thing that happened was the Canadians 
started coming for health care. Twenty-five percent of their 
business are people from outside the Country that come to that 
hospital from all over the world.
    And when people are sick and they need advanced care, they 
are coming here to get that. The term medical tourism didn't 
exist years ago, but now many of our communities see it as some 
of the finest hospitals in the world are located right here; 
and the challenge is do we put that medical advancement at risk 
by limiting reimbursements, limiting access to that, 
controlling how it is done in the days ahead so that the 
medical innovation that is currently occurring slows down and 
that we suddenly become equal with the rest of the world, 
rather than leading the rest of the world in medical innovation 
and device manufacturers and drug developments and such. We 
have to continue to press on to that.
    This is a bill where there are major problems. I have heard 
over and over again it is the law of the land, we should just 
leave it. We are not doing that with No Child Left Behind. We 
see that there are major issues on implementing that law, and 
we have now reached a time where almost every State is under a 
waiver. No one here is saying we need to implement all of No 
Child Left Behind, it is the law of the land, we need to demand 
every part of that is implemented. Why? Because there are major 
problems with the law. And we can see it based on how it is 
implemented, so waivers have gone everywhere to try to free 
everyone up from what is happening on No Child Left Behind.
    We are seeing the same thing occur with the Affordable Care 
Act; waivers for employers, waiver for certain people, waiver 
for certain group, because the problems continue to double up 
on this. Right now the House and the Senate are dealing with 
what do we do to replace No Child Left Behind because it has 
become such a problem, and in the days ahead we will finally 
come to a point of saying there are so many issues and so many 
problems with the implementation, we have to look again at what 
do we do to replace this.
    I look forward to the day when States are allowed to 
experiment, as my State now has to come begging to the Federal 
Government to do things to take care of the needy in my State. 
There is a program called Insure Oklahoma, which has been a 
fantastic program to be able to serve people in my State of 
great need, which we continue to expand. Now we have to beg to 
allow that program to continue to go forward.
    When health care is controlled from Washington, D.C., it is 
about numbers. When it is controlled in State and local areas, 
and counties and districts with great need, and I have many 
rural districts in my State, it is about neighbors and it is 
about families and real lives. So at the end of this day 
hopefully we have brought some questions to the table that we 
can get resolution on and hopefully we can continue to focus on 
families and lives.
    Thank you again for being here and for being a part of this 
conversation. With this, we are adjourned.
    [Whereupon, at 12:48 p.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record


[GRAPHIC] [TIFF OMITTED] T5359.085

[GRAPHIC] [TIFF OMITTED] T5359.027

[GRAPHIC] [TIFF OMITTED] T5359.028

[GRAPHIC] [TIFF OMITTED] T5359.029

[GRAPHIC] [TIFF OMITTED] T5359.030

[GRAPHIC] [TIFF OMITTED] T5359.031

[GRAPHIC] [TIFF OMITTED] T5359.032

[GRAPHIC] [TIFF OMITTED] T5359.033

[GRAPHIC] [TIFF OMITTED] T5359.034

[GRAPHIC] [TIFF OMITTED] T5359.035

[GRAPHIC] [TIFF OMITTED] T5359.036

[GRAPHIC] [TIFF OMITTED] T5359.037

[GRAPHIC] [TIFF OMITTED] T5359.038

[GRAPHIC] [TIFF OMITTED] T5359.039

[GRAPHIC] [TIFF OMITTED] T5359.040

[GRAPHIC] [TIFF OMITTED] T5359.041

[GRAPHIC] [TIFF OMITTED] T5359.042

[GRAPHIC] [TIFF OMITTED] T5359.043

[GRAPHIC] [TIFF OMITTED] T5359.044

[GRAPHIC] [TIFF OMITTED] T5359.045

[GRAPHIC] [TIFF OMITTED] T5359.046

[GRAPHIC] [TIFF OMITTED] T5359.047

[GRAPHIC] [TIFF OMITTED] T5359.048

[GRAPHIC] [TIFF OMITTED] T5359.049

[GRAPHIC] [TIFF OMITTED] T5359.050

[GRAPHIC] [TIFF OMITTED] T5359.051

[GRAPHIC] [TIFF OMITTED] T5359.052

[GRAPHIC] [TIFF OMITTED] T5359.053

[GRAPHIC] [TIFF OMITTED] T5359.054

[GRAPHIC] [TIFF OMITTED] T5359.055

[GRAPHIC] [TIFF OMITTED] T5359.056

[GRAPHIC] [TIFF OMITTED] T5359.057

[GRAPHIC] [TIFF OMITTED] T5359.058

[GRAPHIC] [TIFF OMITTED] T5359.059

[GRAPHIC] [TIFF OMITTED] T5359.060

[GRAPHIC] [TIFF OMITTED] T5359.061

[GRAPHIC] [TIFF OMITTED] T5359.062

[GRAPHIC] [TIFF OMITTED] T5359.063

[GRAPHIC] [TIFF OMITTED] T5359.064

[GRAPHIC] [TIFF OMITTED] T5359.065

[GRAPHIC] [TIFF OMITTED] T5359.066

[GRAPHIC] [TIFF OMITTED] T5359.067

[GRAPHIC] [TIFF OMITTED] T5359.068

[GRAPHIC] [TIFF OMITTED] T5359.069

[GRAPHIC] [TIFF OMITTED] T5359.070

[GRAPHIC] [TIFF OMITTED] T5359.071

[GRAPHIC] [TIFF OMITTED] T5359.072

[GRAPHIC] [TIFF OMITTED] T5359.073

[GRAPHIC] [TIFF OMITTED] T5359.074

[GRAPHIC] [TIFF OMITTED] T5359.075

[GRAPHIC] [TIFF OMITTED] T5359.076

[GRAPHIC] [TIFF OMITTED] T5359.077

[GRAPHIC] [TIFF OMITTED] T5359.078

[GRAPHIC] [TIFF OMITTED] T5359.079

[GRAPHIC] [TIFF OMITTED] T5359.080

[GRAPHIC] [TIFF OMITTED] T5359.081

[GRAPHIC] [TIFF OMITTED] T5359.082

[GRAPHIC] [TIFF OMITTED] T5359.083

[GRAPHIC] [TIFF OMITTED] T5359.084

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
